<html>
<title> - FARGO-MOORHEAD METRO AREA FLOOD CONTROL AND RED RIVER BASIN FLOOD CONTROL ISSUES</title>
<body><pre>[Senate Hearing 111-417]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-417
 
   FARGO-MOORHEAD METRO AREA FLOOD CONTROL AND RED RIVER BASIN FLOOD 
                             CONTROL ISSUES 

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                        MAY 27, 2009--FARGO, ND

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

55-140 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

















                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
ROBERT C. BYRD, West Virginia        THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            CHRISTOPHER S. BOND, Missouri
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 JUDD GREGG, New Hampshire
PATTY MURRAY, Washington             ROBERT F. BENNETT, Utah
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
DIANNE FEINSTEIN, California         SAM BROWNBACK, Kansas
RICHARD J. DURBIN, Illinois          LAMAR ALEXANDER, Tennessee
TIM JOHNSON, South Dakota            SUSAN COLLINS, Maine
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
FRANK R. LAUTENBERG, New Jersey
BEN NELSON, Nebraska
MARK PRYOR, Arkansas
JON TESTER, Montana
ARLEN SPECTER, Pennsylvania

                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

              Subcommittee on Energy and Water Development

                BYRON L. DORGAN, North Dakota, Chairman
ROBERT C. BYRD, West Virginia        ROBERT F. BENNETT, Utah
PATTY MURRAY, Washington             THAD COCHRAN, Mississippi
DIANNE FEINSTEIN, California         MITCH McCONNELL, Kentucky
TIM JOHNSON, South Dakota            CHRISTOPHER S. BOND, Missouri
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              RICHARD C. SHELBY, Alabama
FRANK R. LAUTENBERG, New Jersey      LAMAR ALEXANDER, Tennessee
TOM HARKIN, Iowa                     GEORGE V. VOINOVICH, Ohio
JON TESTER, Montana
DANIEL K. INOUYE, Hawaii, (ex 
    officio)

                           Professional Staff

                               Doug Clapp
                             Roger Cockrell
                         Franz Wuerfmannsdobler
                        Scott O'Malia (Minority)
                         Brad Fuller (Minority)

                         Administrative Support

                            Molly Barackman




















                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening Statement of Senator Byron L. Dorgan.....................     1
Statement of Senator Kent Conrad.................................     3
Statement of Senator Amy Klobuchar...............................     6
Statement of Representative Earl Pomeroy.........................     7
Statement of Representative Collin C. Peterson...................     7
Statement of Colonel Jon Christensen, District Commander, St. 
  Paul District, Army Corps of Engineers.........................     8
    Prepared Statement...........................................    10
Statement of Dennis Walaker, Mayor, Fargo, North Dakota..........    11
    Prepared Statement...........................................    13
Statement of Mark Voxland, Mayor, Moorhead, Minnesota............    14
Statement of Jerry Waller, Chairman, Clay County Commission......    16
    Prepared Statement...........................................    17
Statement of Keith Berndt, Engineer, Cass County, North Dakota...    18
    Prepared Statement...........................................    18
Statement of Hon. John Hoeven, Governor, State of North Dakota...    30
    Prepared Statement...........................................    32
Statement of Brigadier General Michael J. Walsh, Division 
  Commander, Mississippi Valley Division, Army Corps of Engineers    33
    Prepared Statement...........................................    37
Statement of Mark Holsten, Commissioner, Minnesota Department of 
  Natural Resources on Behalf of Hon. Tim Pawlenty, Governor, 
  State of Minnesota.............................................    38
    Prepared Statement...........................................    40
What can the Federal Government do to Help Minnesota Reduce 
  Future Risk From Flooding?.....................................    41
Prepared Statement of Gerald H. Groenewold, Director, Energy and 
  Environmental Research Center..................................    49
Prepared Statement of the North Dakota Farm Bureau...............    50
Prepared Statement of Senator Tim Mathern, District 11, North 
  Dakota Legislative Assembly....................................    50


   FARGO-MOORHEAD METRO AREA FLOOD CONTROL AND RED RIVER BASIN FLOOD 
                             CONTROL ISSUES

                              ----------                              


                        WEDNESDAY, MAY 27, 2009

                               U.S. Senate,
      Subcommittee on Energy and Water Development,
                               Committee on Appropriations,
                                                         Fargo, ND.
    The subcommittee met at 3:38 p.m., in room 201, Fargodome, 
Hon. Byron L. Dorgan (chairman) presiding.
    Present: Senator Dorgan.
    Also present: Senators Conrad and Klobuchar and 
Representatives Pomeroy and Peterson.


              opening statement of senator byron l. dorgan


    Senator Dorgan. Good afternoon and welcome to this hearing 
of the Energy and Water Development Subcommittee. Even though 
this is a field hearing, it is the same as if the hearing were 
being held in my hearing room in Washington, DC. There will be 
a record of the hearing that will contain the testimony of the 
panelists and the witnesses and in addition to that, we would 
invite any written testimony that anyone wishes to submit to 
supplement what we will hear today to be submitted via e-mail 
by June 12, 2009. And you may call my office or see one of my 
staff for the e-mail address in order to submit additional 
written testimony that will become a part of this record.
    We will receive testimony in two panels today. The first 
panel will consist of Colonel Jon Christensen, the Commander of 
the St. Paul District of the Corps of Engineers; the Honorable 
Dennis Walaker, Mayor of Fargo, North Dakota; the Honorable 
Mark Voxland, Mayor of Moorhead, Minnesota; Mr. Keith Berndt, 
the chief engineer of Cass County; the Honorable Jerry Waller, 
chairman of the Clay County Commission of the Minnesota Board 
of Commissioners.
    Our second panel will consist of Brigadier General Michael 
Walsh, Commander of the Mississippi Valley Division of the 
Corps of Engineers; Commissioner Mark Holsten, Minnesota 
Department of Natural Resources, on behalf of Governor Tim 
Pawlenty; and Governor John Hoeven of North Dakota.
    It is a testament of the importance of this issue that all 
of you have come before us today. I want to make a few brief 
comments about the hearing, and then I will call on my 
colleagues. I would hope that my colleagues will have about a 
2-minute opening statement. Then we will get to the witnesses, 
and then we will have plenty of time for questions. We do have 
eight witnesses today. So I do want to see if we can get to 
them as quickly as possible.
    Let me say that in the aftermath of the very serious flood 
fight that occurred here in the Red River Valley, and 
especially in Fargo and Moorhead, this past spring, there are a 
number of questions for the people of the Red River Valley and 
for the people of Fargo and Moorhead. And the central question 
is can more be done to reduce these flood threats? And if so, 
what is it that can be done?
    If one believes there is more storage in the valley that is 
available in order to hold some water back, what authority 
exists to achieve that storage? What is the cost-benefit of 
projects that invest in that storage?
    Second, if Fargo and Moorhead and the citizens of those two 
communities wish to have a greater level of flood protection, 
then what specifically would they like the Corps of Engineers 
to study? What concerns do they have? What cost-benefit test 
would be met by which proposals? And are they able to provide 
the local funding? Because these flood control projects are 65 
percent federally funded and 35 percent State and locally 
funded.
    This subcommittee is the place where the Corps of Engineers 
water programs are funded, but it is not top-down. It is 
instead bottom up. That is, the Federal Government does not 
move around the country trying to determine where we can build 
additional flood control projects.
    The Corps of Engineers is necessarily involved in virtually 
every flood fight, and they do a great job. But when a flood 
fight occurs, the question for local folks is: is there more 
that can be done? Is there a project that meets a cost-benefit 
test that is in the national interest that represents a 
consensus of that which we would like to build?
    At that point, this subcommittee would then, along with the 
relevant subcommittee in the House of Representatives, begin 
funding this through the Corps of Engineers appropriation.
    This is one region, one river, and one cause, in my 
judgment. We had a meeting in Washington, DC about 3 weeks ago 
and I think in that meeting engaged in some constructive 
approaches. That meeting was going to result in additional 
meetings, which I understand have occurred between the 
communities of Fargo and Moorhead, and between Clay County and 
Cass County.
    The issue today and what we hope to put on the record today 
is a timeline by which we might determine what projects might 
be worthy of consideration and what kind of consensus can and 
will exist, if any, of a project that this region wishes to 
fund.
    One potential result is to do nothing, and I say that only 
because I think most of us are gathered here because we watched 
this valiant flood fight in the Red River Valley and believe 
more needs to be done. I personally believe that more needs to 
be done and a comprehensive flood control project needs to be 
built.
    But in the absence of a local consensus, one prospect is to 
have no comprehensive project and every single spring live with 
the anxiety of whether this will be the year that the river 
wins. Or will this be one more year in which we wage a valiant 
effort and fight the river to a draw?
    This is not the only place in the country in where we have 
flooding, but the Nation was fixed on this issue for some weeks 
this year because the question was would this region make it 
through? Would there be catastrophic flooding?
    The answer was not this year. And a substantial amount of 
great work was done--in many cases, by people in this room--to 
avoid the substantial cost of having lost to the Red River.
    From my standpoint, I would say that my hope coming from 
this and other similar meetings would be a series of 
alternatives around which a local consensus has developed and 
then from which a more comprehensive flood control project is 
considered.
    I want to mention as well that my colleagues and I have 
talked about and will consider other meetings with other river 
systems in our State in the weeks and months ahead because we 
believe that, too, is important. This is not just about Fargo 
and Moorhead or Clay and Cass. It is about the entire Red River 
Valley. And it is also about other river systems that have 
exhibited substantial flooding in this year.
    So I want to thank all of you for being here. Let me call 
on my colleague Senator Conrad.


                    statement of senator kent conrad


    Senator Conrad. Thank you, Chairman Dorgan.
    And first, I want to thank you for convening this hearing. 
How fortunate we are to have Senator Dorgan at the head of this 
subcommittee at this critical time for our State and our 
region. We just could not be more fortunate, and we thank you 
for your leadership, Senator Dorgan.
    It is fitting today that this hearing is in the Fargodome, 
which was home to ``sandbag central'' in the midst of the flood 
fight. This is where tens of thousands of people gathered to 
put on really an inspirational display of people coming 
together to protect their homes, their communities, and their 
neighbors. And I can say the eyes of the Nation were on North 
Dakota and Minnesota at those moments, and the people of this 
country were impressed. They were inspired at the way the 
people of our region came together. We can be proud of that.
    In fact, I told General Walsh that he is going to have to 
start filing North Dakota income tax returns. He spent so much 
time here on the flood fight that he now qualifies as a North 
Dakota resident.
    There is no question it seems to me, that just as we came 
together then, we can come together now. And that is really 
what is required of us. Because unless we are able to form a 
local consensus, there is virtually no chance that we will 
secure Federal funding. And I think it is important at this 
moment to thank all of those who helped us come together.
    Mayor Walaker, Mayor Voxland, thank you for your 
extraordinary leadership. Colonel Christensen, we will never 
forget the way you conducted yourself in these difficult times. 
Keith and Jerry, we appreciate so much the leadership that you 
provided as well in these difficult times. And General Walsh 
and the Corps of Engineers, time after time when we called, you 
answered that call. You came here to help make certain that the 
decisions that needed to be made were made.
    But with all of that, I think all of us understand that a 
comprehensive solution is needed for flood protection in this 
metro region. As we witnessed this spring, the current 
patchwork of flood control projects is simply inadequate to the 
task. We can do better, and we must.
    As this chart demonstrates--and I am pointing to the one 
that are ``steps to permanent flood protection''--there are 
several steps that must be taken to achieve permanent flood 
protection. It starts at the local level. The Federal 
Government will be able to come in later as a partner and 
provide a substantial part of the funding, but as we all know, 
flood control begins at the local level.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Right now, we are at the feasibility stage on the ladder, 
and I look forward to the Corps' update on that study today. 
However, as I have said before, each of the partner cities in 
this project needs to form consensus on the project. Without 
that consensus, there is simply very little chance of Federal 
funding.
    Our efforts on flood protection do not stop at the city 
limits. We must look broadly across the basin and not just this 
basin, but the Sheyenne and the James and the Souris in North 
Dakota. All of those are going to require a comprehensive 
approach and a new strategy.
    We cannot rest until temporary flood protection is a thing 
of the past. People here deserve the best that we can do. And 
the best that we can do is permanent flood protection that 
reduces the stress levels that all of us experienced during 
this extraordinary period and that protects these cities, these 
rural residents, and others across these basins from the 
extraordinary flooding events we have seen over the last 12 
years.
    Again, Senator Dorgan, thank you so much for your 
leadership.
    Thanks to our colleagues from Minnesota for being here as 
well. We really are partners in this, and I believe we will 
find a way forward.
    Senator Dorgan. Senator Conrad, thank you very much.
    Senator Klobuchar.


                   statement of senator amy klobuchar


    Senator Klobuchar. Thank you very much, Senator Dorgan, for 
your leadership time and time again on these flood issues. Your 
leadership, we both serve on the Commerce Committee together. 
Your leadership on all kinds of transportation issues as well. 
And I am glad to be here today and I thank you for including us 
in your hearing here in Fargo.
    Both of the Mayors thank you for your leadership. I was so 
impressed by the efforts on both sides of the river. I will 
never forget that day flying over--well, I will never forget it 
because I flew over with Collin in his plane, and when we got 
into the plane, the battery had died. So I will never forget 
that ride, and then the engine flooded, but we got here.
    But what I most remember is just the citizens and how they 
came together, people of all ages. I met a guy at the flood 
control center who lost his home, and he was there 10 hours 
later answering calls. I met a woman who was 80 years old who 
was there giving out cookies, and it was just an amazing thing.
    And there is absolutely no doubt that without the work of 
the citizens, things would have been so much worse. So that is 
what I most remember, and I remember that people worked 
together across both sides of the river, which is exactly what 
we need to do today.
    Just yesterday, I returned to the valley and was with 
Congressman Peterson. We visited with local officials and 
community leaders in Breckenridge and in Moorhead and Hendrum, 
Crookston, and Oslo in order to get a picture of what was going 
on on the Minnesota side of the river, now that the floodwaters 
have receded and the recovery and the planning efforts are 
underway.
    What we heard at those meetings is that there is still a 
lot of work to be done. There is a lot of concern in some of 
our more rural areas about what the impact of any plans that we 
come forward with for the Fargo and Moorhead areas. 
Understandably, they have been suffering from flooding for 
years and years now.
    There is a concern that we look at, as Senator Dorgan and 
Senator Conrad pointed out, in the basin as a whole and that we 
make sure that we are looking at the other projects that need 
to be completed in Breckenridge and Roseau and all parts of 
Minnesota, projects that are already in line.
    But as I said back in March, in the heartland, a river, a 
rising river doesn't divide us. It unites us. And I believe 
that is how we will move forward. As both the Senators from 
North Dakota mentioned, we are going to have to have consensus 
at the local level on this project in order to bring it up 
through Kent's great ladder that he has over there. In order to 
get the funding, we are going to have to have some agreement on 
how we do that.
    I think that is very possible. We faced such a close call, 
and we know we can't just let it happen again. We know that we 
can't figure the sandbags will work forever and ever. We have 
to have a long-range plan.
    So I appreciate being here and look forward to hearing from 
our witnesses to come up with the solution.
    Thank you.
    Senator Dorgan. Senator Klobuchar, thank you very much.
    Congressman Pomeroy.


                statement of representative earl pomeroy


    Mr. Pomeroy. I will be very brief. What a strong sense of 
deja vu coming into this building and seeing the leaders 
assembled, the very people that were directing the effort when 
literally thousands of volunteers turned this place into 
perhaps the greatest sandbag factory ever assembled.
    You know, being part of this community made me so 
incredibly proud with the citizens and its leaders throughout 
this period. And I was in all kinds of meetings in all kinds of 
hours, and I never once heard anybody, from the Mayor on down, 
say, ``This is too hard. Let it flood.'' Not once.
    It seems to me that even though we are removed a bit by a 
few weeks in time, we now face in longer term a very similar 
prospect. Are we going to do something about this threat, or 
are we going to say, ``This is too hard. Let it flood.''
    That is not in our character. It is not in our makeup. We 
have proven it again and again. And now we are going to move 
long term, work through the many very difficult issues of 
coming up with a consensus plan, hands across the river, that 
works for both States and works for multiple communities up and 
down this river.
    Byron, you said it well when you said one region, one 
river, one cause. I am very pleased that you brought this 
hearing to Fargo-Moorhead and I'm looking forward to hearing 
the testimony before us.
    Thank you.
    Senator Dorgan. Congressman Pomeroy, thank you very much.
    Congressman Peterson.


             statement of representative collin c. peterson


    Mr. Peterson. Thank you, Mr. Chairman, and thank my other 
colleagues. I associate myself with the remarks of my 
distinguished colleague Mr. Pomeroy.
    And I also want to single out, in addition to that, the 
Corps and the FEMA people that have done such a great job. And 
we were up in Oslo yesterday, and the FEMA folks were in the 
senior citizen center. I guess they were taking care of the 
folks up there. So we have had a lot of great help through the 
whole process.
    I don't think I should say much. I probably have said 
enough the last day.
    But people didn't listen to my whole statement, but as I 
have said before, we are going to work together. We understand 
that we have to come up with a solution. Fargo-Moorhead is too 
big a part of our valley to ignore, and we all understand that. 
But there are concerns, and we heard them yesterday.
    Beyond the diversion, there are concerns out there. We 
heard in Hendrum about the diversion. ``What is going to happen 
to us?'' And some questions, Mayor Walaker, about the Southside 
project that came up.
    And what we have to do here is we have got to get people 
understanding what we are doing and get the information out 
there. As Byron said, get the consensus. But it is going to 
take a lot of education. It is going to take a lot of meetings. 
And it is going to be hard, but we can do it.
    And so, we are here to do what we can to help on our side 
of the river and work together and come up with a solution.
    Senator Dorgan. Congressman Peterson, thank you very much 
and now to the panel.
    First, we will hear from Colonel Jon Christensen, the 
Commander of the U.S. Army Corps of Engineers, St. Paul 
District. All of us know Colonel Christensen. He has been in 
many parts of North Dakota, engaged with his staff on a very 
aggressive flood fight. We thank you for your efforts for our 
State and our region. And Colonel Christensen, you may proceed.
    The statements will be a part of the permanent record. So 
we would ask all the witnesses to summarize.
STATEMENT OF COLONEL JON CHRISTENSEN, DISTRICT 
            COMMANDER, ST. PAUL DISTRICT, ARMY CORPS OF 
            ENGINEERS
    Colonel Christensen. Chairman Dorgan and members of the 
subcommittee, I am honored to appear before you to report on 
what the Corps of Engineers is doing to address flooding in the 
Fargo, North Dakota, and Moorhead, Minnesota, metropolitan 
area.
    My testimony will address the regional flood situation and 
how the Corps of Engineers proposes to continue to support the 
people of the area.
    The Corps of Engineers has a long history in the Red River 
basin and in the Fargo-Moorhead area. We constructed our first 
permanent flood protection project in Fargo in 1963. We have 
assisted in 17 major emergency flood fights since 1965, and we 
operate reservoirs at White Rock Dam and Bald Hill Dam that 
provide flood storage capabilities to reduce the flood peak 
levels at Fargo and Moorhead.
    The Corps of Engineers initiated the Fargo-Moorhead 
Metropolitan Feasibility Study at the request of the city of 
Fargo, North Dakota, and the city of Moorhead, Minnesota, in 
September 2008. The goal of this study is to develop a regional 
system to reduce flood risk. The study includes Cass and Clay 
Counties and smaller communities in the area, such as Oxbow, 
North Dakota, and Oakport, Minnesota.
    The study will evaluate several alternatives, including 
nonstructural measures, relocation of flood-prone structures, 
levees and floodwalls, diversion channels, and flood storage.
    Recently, two public meetings were held in the region as 
part of the scoping process for an environmental impact 
statement. The Corps will continue to host public meetings to 
update the public on the steady progress and to seek feedback 
on alternatives as they are developed and the project 
progresses.
    The Corps intends to have a timely completion of this 
study. First, we will develop a number of standalone 
alternatives, those being nonstructural measures, levees and 
floodwalls, and diversion channels. Second, we will combine the 
standalone alternatives to form combination alternatives. 
Finally, we will take advantage of the work being conducted as 
part of the Fargo-Moorhead Upstream Feasibility Study to assess 
the potential benefits that flood storage may provide.
    The standalone and combination alternatives will be 
screened, and the results will be presented to the public once 
complete. At that point, the city of Fargo, city of Moorhead, 
and the Corps will decide if continued Federal study is 
warranted and if it is likely that a federally justified plan 
can be identified.
    If there appears to be a federally justifiable plan, the 
remaining alternatives with the greatest potential of becoming 
the national economic development plan will be carried forward 
and optimized, potentially leading to a report of the Chief of 
Engineers.
    Throughout the study, it will be critical to receive input 
from the cities and counties regarding the possible alignments. 
Local input will be the foundation for the alternatives and the 
basis for future plan development. We are certain that the 
project sponsors will need to make difficult decisions and 
those decisions will need to be made in a timely manner.
    To ensure that a timely completion of the study is 
achieved, the Corps of Engineers will need unprecedented 
support on the local, regional, and national levels. Timely 
communication, input, and decisions will be critical. The 
cities and counties will need to work together and to make 
difficult decisions when they arise.
    During the 2009 flood, unprecedented support was provided 
by the Federal, State, and local governments. Those efforts, 
combined with the heroic efforts of the citizens, were able to 
minimize flooding in a large portion of the basin. As part of 
these efforts, the Corps supplied over 11 million sandbags, 141 
pumps, 81,000 feet of HESCO barriers, and 70 miles of earthen 
levees to the Red River basin.
    These efforts, in combination with dam operations, 
prevented nearly $3 billion worth of damages. Of that $3 
billion, nearly $2.5 billion of damages were prevented in the 
Fargo-Moorhead metropolitan area.
    The citizens of Fargo and Moorhead met the Red River's 
challenges this spring, but we all realize there are limits to 
the effectiveness of emergency flood fights, and the area 
remains at considerable risk from flooding. The Corps of 
Engineers is committed to work in partnership with State and 
local agencies to develop long-term strategies to manage and 
reduce flood risk in the Fargo-Moorhead area and the rest of 
the Red River basin.


                           prepared statement


    Again, thank you for allowing me to testify here today. Mr. 
Chairman, this concludes my testimony. I would be happy to 
answer any questions you may have.
    [The statement follows:]
             Prepared Statement of Colonel Jon Christensen
    Chairman Dorgan and members of the subcommittee, I am honored to 
appear before you to report on what the Corps of Engineers is doing to 
address flooding in the Fargo, North Dakota and Moorhead, Minnesota 
metropolitan area. My testimony will address the regional flood 
situation and how the Corps of Engineers proposes to continue to 
support the people of this area.
    The Corps of Engineers has a long history in the Red River Basin 
and in the Fargo-Moorhead area. We constructed our first permanent 
flood project in Fargo in 1963, we have assisted with 17 major 
emergency flood fights since 1965, and we operate reservoirs at White 
Rock Dam and Baldhill Dam that provide flood storage capabilities to 
reduce flood peak levels at Fargo and Moorhead.
    The Corps of Engineers initiated the Fargo-Moorhead Metropolitan 
Feasibility Study at the request of the city of Fargo, North Dakota and 
the city of Moorhead, Minnesota in September 2008. The goal of the 
study is to develop a regional system to reduce flood risk. The study 
includes Cass and Clay Counties, and smaller communities in the area 
such as Oxbow, North Dakota and Oakport, Minnesota.
    The study will evaluate several alternatives, including non-
structural measures, relocation of flood-prone structures, levees and 
floodwalls, diversion channels, and flood storage. Recently, two public 
meetings were held in the region as part of the scoping process for an 
Environmental Impact Statement. The Corps will continue to host public 
meetings to update the public on the study progress and to seek 
feedback on the alternatives as they are developed and the project 
progresses.
    The Corps intends to have a timely completion of this study. First, 
we will develop a number of stand alone alternatives, those being 
nonstructural measures, levees and floodwalls, and diversion channels. 
Second, we will combine the stand alone alternatives to form 
combination alternatives. Finally, we will take advantage of the work 
being conducted as part of the Fargo-Moorhead Upstream Feasibility 
Study to assess the potential benefits that flood storage may provide.
    The stand alone and combination alternatives will be screened and 
the results will be presented to the public once complete. At that 
point the city of Fargo, city of Moorhead and the Corps will decide if 
continued Federal study is warranted and if it is likely that a 
federally justified plan can be identified. If there appears to be a 
federally justifiable plan the remaining alternatives with the greatest 
potential of becoming the National Economic Development plan will be 
carried forward and optimized, potentially leading to a Report of the 
Chief of Engineers.
    Throughout the study it will be critical to receive input from the 
cities and counties regarding the possible alignments. Local input will 
be the foundation for the alternatives and the basis for future plan 
development. We are certain that the project sponsors will need to make 
difficult decisions and those decisions will need to be made in a 
timely manner.
    To ensure that a timely completion of this study is achieved, the 
Corps of Engineers will need unprecedented support on the local, 
regional, and national levels. Timely communication, input and 
decisions will be critical. The cities and counties will need to work 
together and make difficult decisions when they arise.
    During the 2009 flood, unprecedented support was provided by the 
Federal, State, and local governments. Those efforts combined with the 
heroic efforts of the citizens were able to minimize flooding to a 
large portion of the basin. As part of these efforts, the Corps 
supplied over 11 million sandbags, 141 pumps, 81,600 feet of HESCO 
barriers, and 70 miles of earthen levees to the Red River Basin. These 
efforts, in combination with dam operations, prevented nearly $3 
billion in damages. Of that $3 billion, nearly $2.5 billion of damages 
were prevented in the Fargo-Moorhead Metropolitan area.
    The citizens of Fargo and Moorhead met the Red River's challenge 
this spring, but we all realize there are limits to the effectiveness 
of emergency flood fights, and the area remains at considerable risk 
from flooding. The Corps of Engineers is committed to work in 
partnership with State and local agencies to develop long-term 
strategies to manage and reduce flood risk in the Fargo-Moorhead area 
and the rest of the Red River Basin.
    Again, thank you for allowing me to testify here today. Mr. 
Chairman, this concludes my testimony. I would be happy to answer any 
questions you may have.

    Senator Dorgan. Colonel Christensen, thank you very much 
for your testimony.
    Next, we will hear from the Mayor of Fargo, Dennis Walaker. 
Mr. Mayor, welcome.
STATEMENT OF DENNIS WALAKER, MAYOR, FARGO, NORTH DAKOTA
    Mr. Walaker. I will not go off the script, and the reason I 
will not do that is I understand things can be taken out of 
context.
    We do not start this by driving something between us. What 
we need to do, like Senator Dorgan has said again and again, 
that we need a plan, and that plan needs to be comprehensive 
for everybody. And my statement in the paper was very simple, 
that we need to wait until the engineers, especially the Corps 
of Engineers comes back with their preferred alternatives, and 
then we can decide and begin the debate.
    First of all, Senator Dorgan and members of the 
subcommittee, welcome to Fargo, back again. And thank you for 
holding this hearing at the Fargodome.
    As you know, the spring of 2009 presented the citizens of 
Fargo-Moorhead and Cass and Clay Counties with a tremendous 
challenge, a record flood event. It seems like we are 
experiencing a record flood every 5 years.
    Attachment A of this testimony reveals that the past 50 
years of flooding in Fargo-Moorhead, it shows that 2009 with a 
100-year event or greater. This year's flood also reflected a 
recent phenomenon, 8 days from our first flood stage of 18 feet 
to a crest of 40.82 feet, 3 weeks earlier than the previous 
prediction. Everybody thought it was going to come in April, 
and that is normally when it does. But it came in the end of 
March.
    As a result of this flood record, Fargo and its citizens 
had to take Herculean efforts to protect our city and its 
property. Attachment B shows the 48 miles of temporary levees 
that were built using approximately 300,000 cubic yards of clay 
hauled in in 30,000 truckloads, which was constructed in only 8 
days. That should not become the norm.
    If I was asked at the beginning of this entire flood 
whether we could do this or not, I would say absolutely not 
because we had never done in the past. Before the clay had to 
be collected, we had to remove 100,000 cubic yards of topsoil 
and frozen material on top of the clay.
    And also, these temporary protective measures required a 
volunteer force of over 100,000 people, and they came from 
everywhere, from out of State. There are people that came in 
their vehicles, slept in their vehicles, absolutely amazing. 
And when you talked about what was happening here and over at 
the University of Minnesota and in Moorhead, it was absolutely 
emotional to walk in and see what was going on here.
    The facility, the Fargodome, became the base for our 
sandbag operations, running 24 hours a day for the duration of 
the flood fight. During the flood, approximately 160 portable 
pumps, ranging in size from 2 to 12 inches, ran continually, 
including 120 permanent lift stations on storm water.
    Fortunately for us, there was about 2 weeks of below 
average temperatures that slowed the rate of rise of the Wild 
Rice, the Mustinka, and the Rabbit Rivers, which feed the Red 
River south of Fargo. However, we cannot factor in cold weather 
every time we have flooding conditions.
    I remember specifically somebody from the Corps of 
Engineers saying the weather was such a great benefit, but he 
said after you got hit in the head with a 2 by 4 10 times, he 
said, it is about time we got a little bit of help from mother 
nature.
    Our concern is how do we record floods that keep 
reoccurring on a more regular basis? Attachments C and D--and 
these attachments are along here--reflect what meteorologists 
refer to as a ``wet cycle'' in our weather patterns.
    As you can see in these charts, the moisture received in 
the area for the past 10 years has been above normal, and the 
flows in the Red River have been higher than average. All 
winter they were higher than average, and the lakes once again 
are full this spring. During the peak of the 2009 flood, the 
Red River was running at a rate of over 29,400 cubic feet per 
second, while the average 10-year discharge is 10,300 cubic 
feet per second.
    Attachments E and F show the Red River watershed south of 
Fargo-Moorhead and the permitted drainage ditches developed on 
the land over the past 50 years. We are concerned that any 
additional drainage development will only add to these issues 
that we have here in the Fargo-Moorhead area.
    I am not faulting the producers in the Red River Valley. If 
I owned land out there, I would probably do the same thing. But 
people have to understand what is happening here in our cities 
on this frequent basis as more drainage is added to our system.
    Since we are located in a very shallow drainage system, 
more water, rising faster, causes us to protect our community 
to a higher level than we ever thought necessary. I thought 
1997 was going to be the benchmark for each and every one of us 
in our lifetime.
    As you can see, the water--if we did not protect ourselves 
to 42, 43 feet, you can see on one of the charts there how much 
of the city would have flooded--600 single-family homes, 6,000 
apartment buildings, displacing over 52,000 residents.
    It also would have inundated North Fargo through the North 
Dakota State University campus, as well as the neighborhoods 
situated along the Red River. Permanent protection through 
Fargo, including upstream retention and overland flood 
protection throughout Fargo-Moorhead is needed as soon as 
possible.
    I will make one comment. It got to be an issue. We 
understand the concerns of everybody that was here, and I had 
one of those concerns myself about evacuating our city. And it 
was amazing. You left the decision to us, and we made that 
decision together that we would not evacuate our city. And as 
it turned out, it worked out well.
    But we do not criticize anybody for their concerns coming 
to the city of Fargo and asking us to consider evacuation.

                           PREPARED STATEMENT

    So that basically sums up. We printed 50 copies. Everything 
is available.
    So I would like to thank you for this opportunity to 
testify today on behalf of the citizens of the Red River 
Valley.
    Thank you.
    [The statement follows:]
                  Prepared Statement of Dennis Walaker
    Senator Dorgan and members of the subcommittee, welcome to Fargo, 
and thank you for holding this hearing at the Fargodome.
    As you know, the spring of 2009 presented the citizens of Fargo-
Moorhead, Cass and Clay counties with a tremendous challenge--a record 
flood event. It seems like we are experiencing a record flood about 
every 5 years. Exhibit A of this testimony reveals the past 50 years of 
flooding in Fargo-Moorhead, it shows that 2009 was a 100 year event or 
greater. This year's flood also reflected a recent phenomena--8 days 
from our first flood stage of 18 feet to a crest of 40.82 feet, and 3 
weeks earlier than previous predictions.
    As a result of this record flood, Fargo and its citizens had to 
undertake Herculean steps to protect our city and its property. 
Attachment B shows the 48 miles of temporary levees that were built 
using 300,000 cubic yards of clay hauled in 30,000 truck loads which 
were constructed in only 8 days. Even before the clay could be 
collected, approximately 100,000 cubic yards of topsoil and frozen 
material had to be removed to get to the clay. Also, these temporary 
protective measures required a volunteer force of over 100,000 people 
to help fill and place over 3.5 million sandbags. This facility, the 
Fargodome, became the base for the sandbag operations, running 24 hours 
a day, for the duration of the flood fight.
    During the flood, approximately 160 portable pumps ranging in size 
from 2 to 12 inches ran continually, including 120 permanent storm 
water pumps. Fortunately for us there was about 2 weeks of below 
average temperatures that slowed the rate of rise of the Wild Rice, 
Mustinka, and Rabbit rivers which feed into the Red River south of 
Fargo. However, we cannot factor in cold weather every time we have 
flooding conditions.
    As waters continued to rise, protective dikes and overland flooding 
caused over 20 miles of road closures. Water rescues of stranded 
residents had to be conducted in the county. Residents working hourly 
paying jobs and service industry businesses depending on patrons were 
negatively affected.
    Our concern is how do these record floods keep occurring on a more 
regular basis? Attachments C and D reflect what meteorologist refer to 
as a ``Wet Cycle'' in our weather patterns. As you can see in these 
charts the moisture received in the area for the past 10 years have 
been above normal; and the flows in the Red River of the north have 
also been higher than average. During the peak of the 2009 flood, the 
Red River was running at a rate of over 29,400 cubic feet per second 
while the average 10 year discharge is 10,300 feet per second. 
Attachments E and F show the Red River watershed south of Fargo-
Moorhead and the permitted drainage ditches developed on the land over 
the past 50 years. We are concerned that any additional drainage 
development will only add to the flood issues we have here in the 
Fargo-Moorhead area.
    Since we are located in a very shallow drainage system, more water, 
rising faster, causes us to protect our community to a higher level 
than we ever thought necessary. Attachment G shows what would happen if 
Fargo had not been able to protect itself to 41 feet in 2009. As you 
can see, the water would have extended from south of Fargo all the way 
to Interstate 94 west of Interstate 29 to the West Fargo boundaries, 
causing the flooding of over 6,000 single family homes and over 6,000 
apartment buildings, displacing over 52,000 residents. It would have 
also inundated North Fargo through the North Dakota State University 
campus, as well as most neighborhoods situated along the Red River. 
Permanent protection through Fargo, including upstream retention and 
overland flood protection throughout the Fargo-Moorhead area, is needed 
as soon as possible.
    I would like to thank you for this opportunity to testify today on 
behalf of the citizens of the Red River Valley.

    Senator Dorgan. Mayor Walaker, thank you very much.
    Next, we will hear from Mayor Mark Voxland, the Mayor of 
the city of Moorhead. Mayor Voxland.
STATEMENT OF MARK VOXLAND, MAYOR, MOORHEAD, MINNESOTA
    Mr. Voxland. Chairman Dorgan, Members of Congress, thank 
you so much for coming today. We really appreciate this hearing 
being held in the Fargo-Moorhead area.
    My name is Mark Voxland. I am the Mayor of the city of 
Moorhead. We are on the east coast of the Red River.
    As a quick aside, our family history shows that in 1893, my 
great aunt lost all of her possessions in the Great Fargo Fire. 
And then what she had accumulated by 1897, she again lost 
everything in the Great Flood of 1897. I think it is amazing 
that 100 years later, our family still gets to see record 
floods in 1997 and 2009.
    Moorhead is a growing city. It is part of the metropolitan 
statistical area. The MSA of Fargo-Moorhead is about 193,000. 
We are the largest city in the western half of Minnesota. We 
have a very stable housing sector in our community, and it is a 
very stable sector in this part of Minnesota. We are seeing 
growth in new housing starts continuing, even though we are 
seeing declines in the rest of Minnesota.
    Our population right now is just under 36,000 as of the 
2009 State demographer. We are up a little over 10 percent in 
the last 8 years.
    During the 2009 flood, a flood that when we were talking in 
Washington, DC, right around March 15, we were looking at a 37-
foot flood, which is a major flood, but feeling very confident 
because of the 1997 flood.
    Two days after we got back from Washington, DC, we found 
out that it was going to be 39 feet plus. And as each day of 
that next week rolled along, we kept hearing the National 
Weather Service raising that flood crest peak up a foot. It was 
a very trying time for citizens all over the Red River Valley.
    In the end, Moorhead, we put in 9 miles of sandbags, about 
2.5 million sandbags, as compared to maybe 1 million in 1997. 
Once you go up that extra 1\1/2\ feet, that's a major effort in 
sandbagging in Moorhead. We put in over 8 miles of clay dikes. 
Those were constructed by the U.S. Corps of Engineers. They 
were constructed after the first crest, and they were there as 
our secondary line of defense.
    About 71,500 cubic yards of material is necessary to create 
those clay dikes. And one thing that a lot of people in the 
country don't understand is we were fighting a flood in March. 
Those sand pits were frozen, and those clay pits that we were 
getting clay from were frozen. It isn't just grabbing some sand 
and bringing it in. And most of the sand did come from an area 
about 25 miles away. So there was a real logistical difficulty 
as we created that.
    As with Fargo, about 100,000 hours of labor, we figure, 
from volunteers were put in on this effort in 2009, a Herculean 
effort much greater than we ever did see, even in 1997.
    We feel that in the long-term this kind of approach that we 
had to do in 1997 and again in 2009 is really not sustainable. 
We are going to need some interim flood protection measures put 
into place so that we can be ready for that once in 100 year 
flood event that could happen next year or in 2 or 3 years as 
we wait and find out what this comprehensive flood protection 
set of measures are going to be. That is going to be the key to 
our success in Moorhead and in Fargo in the next couple of 
years and down the line.
    I think that the city of Moorhead--I know that the city of 
Moorhead sees that both Federal and State mitigation programs 
are going to be important to us. The State of Minnesota this 
year allocated $17.6 million for flood mitigation measures. We, 
as a city, will be applying for that. That money doesn't come 
to us, but it comes to all cities that need flood mitigation. 
And we will be applying and have already started that process 
now so that we can start putting in some short-term measures 
for flood protection of our public infrastructure.
    We are going to be working with FEMA, section 206 
mitigation grant programs. One of the concerns we have with 
that is you can't build flood structures on land purchased with 
206 dollars. We will be working very closely with FEMA to 
figure out how we can utilize those dollars to the most 
effectiveness to protect our city, but still be able to build 
the diking that we feel will probably be needed when we hear 
the Corps' final study.
    The city of Moorhead does support permanent flood 
protection for our cities. We agree with what Mayor Walaker 
said. We need to see what the Corps study brings out next year. 
I keep hearing December, but I read in the paper today 
September 2010, and I thought, well, if it is a misprint, wow. 
If it is true, I love it.
    But we look forward to what that final is. And we, in the 
meantime, know that we have got to figure out a way for 
Moorhead and Fargo, Cass and Clay County to figure out some of 
those things that need to be decided before we can move forward 
with that Corps study.
    Simple things like what is the level of protection? Do we 
protect both cities to 39 feet, and then the Corps thing is at 
42? We need to come up with those numbers ahead of time.
    I see the next 18 months, as we look toward Senator 
Conrad's ladder, I kind of look at that as Moorhead and Fargo, 
Cass and Clay County looking to find the trailhead. We know 
that the path is out there, but we have to find where that path 
begins. And that is what we are going to be working on very 
hard the next 18 months.
    Again, we support what the Corps is doing, what the Corps 
staff is doing. We are very thankful for what they did for us 
in the months of March and early April. We look forward to 
seeing and working with the Corps as they come up with that 
final set of projects that we could implement.
    In closing, I really believe that the economic growth and 
vitality of Moorhead and Fargo over the next 50 to 100 years is 
very much determined on what we do in the next 18 months to 4 
years. We need to find permanent flood protection. We need to 
get going on it.
    The last statement that I have here talks about 
generations, and people need to understand we have to get 
together for employment. What I look at is very basic. I have 
three grandchildren that live in Moorhead. I will be darned if 
I want them to go through what my great aunt went through. So 
what I see is really a way that we can protect Moorhead and 
Fargo, Cass County, Clay County, and the valley so that my 
grandchildren can choose to live in this area and not have to 
worry about the flood.
    I want them to be able to go out to the Red River and look 
at it and say, ``Wow, that river sure is high for a record 
flood.'' I don't want them to ever learn how to make sandbags.
    Thank you, Senator. Thank you, Members of Congress.
    Senator Dorgan. Mayor Voxland, thank you very much.
    Next, we will hear from Chairman Jerry Waller of the Clay 
County Commission.
STATEMENT OF JERRY WALLER, CHAIRMAN, CLAY COUNTY 
            COMMISSION
    Mr. Waller. Okay. Thank you, Chair Dorgan, Senators Conrad 
and Klobuchar, Congressmen Peterson and Pomeroy, for being here 
today, first of all, and, second of all, for allowing us to 
offer testimony on some perspectives from Clay County.
    Being a lifelong resident of this area, I remember vividly 
the flood of 1969, the spring flood of 1969. I remember the 
summer flood of 1975, and the greater Fargo-Moorhead 
metropolitan area has experienced four major floods on the Red 
River since 1997. That tells me that the flood events are 
coming more frequently and with more severity, as we have 
witnessed this spring.
    The property damage and disaster recovery costs resulting 
from these flood events have exceeded hundreds of millions of 
dollars, not to mention the substantial emotional and mental 
anguish suffered by the citizens and the region during each 
flood event. And if you could put dollar, hang dollars on 
emotions and stress and those things, I would guess that number 
would probably be higher than the millions that have been spent 
on fixing and doing things from these flood events.
    Clay County supports the efforts to design and implement 
permanent flood protection measures involving the Red River of 
the North and its tributaries. Clay County is appreciative of 
the strong support from the States of Minnesota and North 
Dakota and our congressional delegations in Washington, DC, and 
their willingness to establish a region-wide flood protection 
authority, control authority and to help fund this major 
undertaking.
    Ongoing collaboration among area local governments in 
various State and Federal agencies in finding region-wide flood 
control solutions is essential. Clay County will continue to be 
an active partner in this process.
    The Fargo-Moorhead metropolitan flood study presently being 
conducted by the U.S. Army Corps of Engineers must incorporate 
the river elevation analysis and design considerations used in 
the Fargo Southside Flood Control Project to ensure that there 
is no adverse flooding impact on the properties on the 
Minnesota side of the river as a result of this project.
    The permanent flood control measures recommended by the 
Corps flood study must address the flood protection in all of 
Clay County, including those communities and residential areas, 
such as Georgetown and Kragness to the North, the Crestwood 
subdivision to the south, which are located beyond the 
immediate vicinity of the city of Moorhead in Oakport Township. 
We feel strongly that whatever measures--and I am sure there is 
nobody in this room that feels differently. But whatever 
measures are taken here just do not move this problem 
downstream.
    Recommendations for long-term flood control structures, 
such as a diversion channel and/or dike system, must also 
include analysis of cost impacts on local governments, long-
term maintenance plans, and funding mechanisms.
    The diversion is going to be a controversial issue. I don't 
know that that can be avoided. If you do the math, that would 
take approximately 7,500 acres of the richest farmland in the 
world out of production, which is an equivalent to 11.5 
sections.
    But there are other issues. There are aquifers in this 
area. The city of Moorhead collects their water from the 
Buffalo aquifer. There is another aquifer further to the north, 
and there certainly is concern of any diversion and what 
effects it would have on the recharging of those aquifers. And 
these aquifers, estimates are that these will supply fresh 
water to about 50,000 residents, rural and citywide.
    It is not clear at this time as to how the recommendations 
of the Corps flood study and the ensuing construction and 
maintenance of the permanent flood control structures will 
dovetail with the scope and the responsibility of the proposed 
region-wide flood management authority. A region-wide flood 
management authority established by the U.S. Congress must be 
granted adequate Federal powers, which will enable it to 
effectively implement flood protection measures across the 
State border lines in a regional watershed which spreads across 
the two States and the two Federal regions.
    I want to comment on Colonel Christensen's comments today 
on retention. As we met in Washington, DC a month ago or 3 
weeks ago or a month ago, whatever it was, we talked about the 
three-legged stool approach, and we feel that retention may 
have to certainly be included to make for meaningful flood 
control.

                           PREPARED STATEMENT

    So, again, I appreciate you having me here to testify on 
behalf of my colleagues and the citizens of Clay County, and we 
certainly hope to work with you as this project moves forward.
    [The statement follows:]
                   Prepared Statement of Jerry Waller
    The Greater Fargo Moorhead Metropolitan Area has experienced four 
major floods on the Red River since 1997. The property damage and the 
disaster recovery costs resulting from these flood events have exceeded 
hundreds of millions of dollars, not to mention the substantial 
emotional and mental anguish suffered by the citizens of the region 
during each flood event.
    Clay County supports the efforts to design and implement permanent 
flood protection measures involving the Red River of the North and its 
tributaries.
    Clay County is appreciative of the strong support from the States 
of Minnesota and North Dakota and our congressional delegations in 
Washington, DC in their willingness to establish a region wide flood 
control authority and, to help fund this major undertaking.
    Ongoing collaboration among area local governments and various 
State and Federal agencies in finding region wide flood control 
solutions is essential. Clay County will continue to be an active 
partner in this process.
    The Fargo-Moorhead Metropolitan Flood Study, presently being 
conducted by the U.S. Army Corps of Engineers must incorporate the 
river elevations analyses and design considerations used in the Fargo 
Southside Flood Control Project to insure that there is no adverse 
flooding impact on the properties on the Minnesota side of the river as 
a result of this project.
    The permanent flood control measures recommended by the Corps Flood 
Study must address the flood protection in all of Clay County, 
including those communities and residential areas; such as Georgetown 
and Kragnes to the north and Crestwood Subdivision to the south; which 
are located beyond the immediate vicinity of the city of Moorhead and 
Oakport Township.
    Recommendations for long term flood control structures such as a 
diversion channel and/or a dike system must also include analysis of 
cost impacts on local governments, long term maintenance plans, and 
funding mechanisms.
    If a diversion channel on the Minnesota side is recommended as a 
permanent flood protection measure for the area, its alignment, design 
and location must be coordinated with the city of Moorhead to insure 
that there is no damage to the south branch of Buffalo Aquifer which 
serves as the primary source of water supply for the city.
    It is not clear at this time as to how the recommendations of the 
Corps Flood Study, and the ensuing construction and maintenance of the 
permanent flood control structures, will dove tail with the scope and 
the responsibility of the proposed region wide flood management 
authority.
    A region wide flood management authority, established by the U.S. 
Congress, must be granted adequate Federal powers which will enable it 
to effectively implement flood protection measures across the State 
border lines in a regional watershed which spreads across two States, 
and two Federal regions.

    Senator Dorgan. Chairman Waller, thank you very much.
    Finally, we will hear from Keith Berndt, the Cass County 
engineer.
STATEMENT OF KEITH BERNDT, ENGINEER, CASS COUNTY, NORTH 
            DAKOTA
    Mr. Berndt. Senator Dorgan, Members of Congress, Senator, 
thank you for convening this hearing. And Members of Congress, 
thank you for being here this afternoon.
    My name is Keith Berndt. I am the county engineer for Cass 
County, North Dakota.
    As a county, we look forward to working in partnership with 
the communities and agencies on both sides of the Red River to 
bring solutions to fruition in a timely manner. The economic 
future of this metropolitan area and the entire region is 
dependent upon timely completion of permanent flood protection 
projects.

                           PREPARED STATEMENT

    We are all involved in this historic process to move as 
quickly as possible. We must recognize the tremendous risk and 
costs associated with every year that passes without protection 
in place. We have before us an historic opportunity and an 
obligation to future generations to work together as 
communities to solve this daunting, but solvable problem.
    Thank you. That concludes my testimony.
    [The statement follows:]
                   Prepared Statement of Keith Berndt
    We would like to express our sincere appreciation to Senator Dorgan 
for convening this hearing and for your strong ongoing support of 
permanent flood protection. Permanent flood protection for the Fargo 
Moorhead metropolitan area is critical. As a county, we look forward to 
working in partnership with the communities and agencies on both sides 
of the Red River to bring solutions to fruition in a timely manner.
    The economic future of this metropolitan area and the region is 
dependent upon timely completion of permanent flood protection 
projects. We urge all involved in this historic process to move as 
quickly as possible. We must recognize the tremendous risk and cost 
associated with every year that passes without protection in place.
    We have before us a historic opportunity and an obligation to 
future generations to work together as communities to solve this 
daunting, but solvable problem.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Dorgan. Mr. Berndt, thank you very much.
    I would like to ask a couple of questions and then call on 
my colleagues if they have questions as well.
    First to Colonel Christensen, you have been looking at 
various project options at this point, and you indicated by the 
end of May, you thought you would have some preliminary 
numbers. What are the preliminary benefits or cost-benefit 
ratios for the various project options? Are you prepared to 
disclose that to us at this point?
    Colonel Christensen. We have done some preliminary cost-
benefit ratio calculations on the options that we have looked 
at so far. And what we have looked at is a levee option and a 
diversion channel option and a combination of those two pieces.
    And right now, without optimization and without taking into 
account other facets of the project that we call on board, 
stuff like upstream storage and working these in combination 
and detail, the levee option comes out to be about 1.0. The 
diversion channel option comes out to be 0.65, and the 
combination plan comes out to about 0.62.
    And again, these aren't optimized and are back of the 
envelope-type calculations.
    Senator Dorgan. Right. Whatever optimized is, it is a term 
of art. If those were the cost-benefit ratios that represented 
some final analysis, the levee option would then represent the 
only option that would meet the Federal cost-benefit ratio 
test. Is that correct?
    Colonel Christensen. Yes, sir. But that is in isolation.
    Senator Dorgan. I understand that, but I am talking about 
the options.
    Colonel Christensen. But of the three options on the table, 
that would be the only one that would----
    Senator Dorgan. The only one that would meet a test and go 
forward would be the levee option?
    Colonel Christensen. Yes, sir.
    Senator Dorgan. A quick question, what information and 
decisions do you need from local governments as you proceed 
from now until either September or December of next year, and 
is that the next decision point in the study?
    Colonel Christensen. We are getting everything we need 
right now in coordination with the local and the State 
governments. We have been working in a very cooperative 
fashion.
    Basically, what we need is input into what the solutions 
are going to be, impacts on what would be the impacts of a 
given solution on the community and others around it, and also 
we need help in making sure that we go out and sell this plan 
in a unified effort to the public.
    The next decision point will be this fall, when we will 
have a more refined cost-benefit analysis on the various 
options that we are going to lay forward. At that time, we are 
going to sit down with the local communities and figure out 
what is the best proposed solution and whether that does have a 
Federal interest.
    Senator Dorgan. You say this fall?
    Colonel Christensen. This fall.
    Senator Dorgan. And what does ``this fall'' mean?
    Colonel Christensen. We will go with September, sir.
    Senator Dorgan. All right.
    Colonel Christensen. We will make a decision about whether 
we are going to move forward or not, whether there is a Federal 
interest, and what the best plan would be.
    Senator Dorgan. Can you explain in layman's terms how the 
flood protection in a metropolitan area like Fargo and Moorhead 
can affect river States upstream and downstream and how the 
potential effects of a project like that are addressed as a 
part of your study?
    Colonel Christensen. Yes, sir. That is a very complex 
question. We start with the levees. Levees can constrict the 
water flow through a city, and it could affect the upstream 
stage, and it could affect the downstream stage as the water 
comes in.
    Now there are ways to mitigate that by offsetting the 
levees a little bit farther into the floodplain, but there is 
always that potential. And we do the modeling to make sure that 
those impacts are minimized.
    In a diversion channel, you are taking flow around the 
metropolitan area. There is always a danger that you pass that 
water too quickly and that it will increase the stage in the 
communities upstream.
    Again, we will do the modeling to make sure that is 
minimized, and as the diversion goes around the city, the water 
is slowed enough so that it would not have an adverse impact. 
But it could have an adverse impact if done improperly 
downstream, and it will have the potential to lower the 
upstream stage as well.
    Senator Dorgan. I am going to send you a series of 
questions, and in that series, I am going to ask a number of 
questions be answered with respect to the Southside project in 
Fargo, its impact on a comprehensive flood control project, 
cost-benefit ratio, and so on. I will also request your 
assessment of an impact, if any, that a Southside project in 
Fargo would have with respect to the city of Moorhead.
    So I will submit those for the record, and if you wish to 
comment--and perhaps my colleagues will pursue that because I 
think we should have some discussion of that here, but we will 
also ask that you submit some responses for the record.
    Now let me ask the two Mayors to fast forward to the end of 
this year. It is December. Do you have some confidence that 
there will be a consensus between the two major cities, and 
that would include, of course, the counties on some kind of a 
flood control project that represents what you consider to be 
the interests of both areas?
    Are you optimistic that by December, if we meet----
    Mr. Walaker. We are always optimistic.
    The Southside project, I will take that on first. It 
isn't--this didn't just happen overnight. Two years ago, they 
brought the plans forward, and there was somewhere around a 6- 
to 9-inch increase in the river through Briarwood. There was an 
uprising, and basically, I asked staff to go back and reduce it 
to zero because that was the only way we were going to get it 
passed through the process.
    So it didn't start 2 years ago. It basically started 4 or 5 
years ago trying to come up with this process. So that is why 
some people look at this as a very complex plan, and it is, 
extending Drain 27, Drain 53, and so forth into storage and 
adding probably at least a section of storage down in that area 
and then also these channel cut-offs and so forth. So it is a 
complex project. But properly managed and so forth, it has a 
zero impact on these areas.
    And we have had peer review and so forth. So that is part 
of it. If there is any mistake in this process, we did not--we 
had 50 or 60 meetings. There has been a group of--from the DNR, 
from Moorhead, the city engineer and so forth, a technical 
group that have been meeting for over a year. So there is 
probably 100 meetings total.
    If there is any mistake in this whole process, because 
Moorhead was not going to be participating in the cost of that 
event, maybe we overlooked that a little bit. So we didn't get 
the information out.
    There seems to be a disconnect between the engineers and 
the elected officials, okay. And I don't mean that to be a 
negative. What that is, is that the elected officials that are 
out there representing the public feel that they need to 
understand the project, and maybe I have spent too much time at 
this, and I will take any responsibility for that. That is not 
a problem. It is just that frustrations begin and so forth.
    And if we are going to debate this in the forum--and we are 
not going to do that, right, Collin, because that accomplishes 
nothing. We need to allow the Corps of Engineers to do their 
process.
    Now it doesn't sound like a diversion is going to work 
anyway, and maybe you guys are absolutely right. We don't need 
anybody to drive a divisive separation of the river. We need to 
cooperate.
    You told us this specifically, that we need a plan that 
both cities can come forward, and we want it done by the Corps 
of Engineers. That is why we solicited them to go ahead with 
this comprehensive study, when the study for downtown Fargo, 
including City Hall, did not have the cost-benefit ratio. So, 
that is what we are doing.
    If we get some information at the end of this year, that is 
magnificent. But we are all waiting for September or December 
2010 also to have a preferred alternative.
    Senator Dorgan. I am going to ask Mayor Voxland if he 
wishes to respond. But Colonel Christensen, would you just tell 
us when you did the cost-benefit ratios a few moments ago, was 
that for a 100-year flood or a 500-year flood or some other 
flood? Tell us what it was you were measuring.
    Colonel Christensen. I would have to go for a lifeline on 
that, sir, just to make sure that I am correct, 100 year plus 4 
feet.
    Senator Dorgan. Pardon me?
    Colonel Christensen. A 100-year flood plus 4 feet.
    Senator Dorgan. Thank you.
    Mayor Voxland.
    Mr. Voxland. I look back to what the world was like in our 
area on March 15, and had you asked that question then, I would 
have kind of smiled and chuckled because there was a casual 
discussion of different things amongst the group. Starting with 
the meeting that you convened in Washington, DC, the city of 
Moorhead, Fargo, Cass and Clay County have had one joint 
meeting since then. We have another one that they are working 
on scheduling for June right now.
    My belief is the best way that we are going to get good 
cooperation is by having us get together and, first of all, get 
to know each other, get to know the first names of everybody 
that is around the table, get to know a little bit about them, 
and honestly talk about the problems and how we can solve them.
    I think that has been happening. It has been happening--as 
I look in front of me, it is happening at the national level. I 
know it is happening at the State level. It is happening at the 
local level.
    I think we are going to be a long way toward a final, 
cohesive answer by the end of this year. We might not have 
everything done, but we will be a long way. And by the time the 
Corps project comes out, I think we will be in good sync with 
it. I am very confident. You can't be Mayor and be pessimistic.
    Senator Dorgan. Well, Mayor Voxland, I am encouraged by 
that answer certainly and by the answer of the mayor of Fargo.
    Again, I will send a series of questions to the entire 
panel for a written response to be included in the record.
    Senator Conrad.
    Senator Conrad. Thanks again, Mr. Chairman. And I didn't 
have a chance to thank specifically my colleague Senator 
Klobuchar for being here and for her leadership. She has just 
been terrific to work with on these issues. One thing about 
Senator Klobuchar, she does her homework. And so, it has been 
great to have her as a partner in this effort.
    And Congressman Peterson, I will tell you, you could not 
have a better partner in a fight than Collin Peterson. And I 
know because we just went through the Farm bill together, and 
we were great allies in that fight and will be allies in this 
effort as well.
    The Mayor, Mayor Walaker mentioned the evacuation meeting 
that we had. It really was, I thought, was going to be a 
meeting about resources but turned out to be, in part, about 
the evacuation. I just want to say, as we went through that 
meeting, I thought you, Mayor Walaker, and the Deputy Mayor, 
Tim Mahoney, made a very clear and compelling case that you had 
taken the responsible steps that would be expected.
    You had a plan. You had gotten the vulnerable populations 
evacuated. You had voluntary evacuations of the low-lying 
areas, and you had issued special alerts to the people who were 
between the backup dikes and the main dikes. So I personally 
was persuaded you had been fully responsible in an evacuation 
planning effort.
    I want to ask Colonel Christensen, as I understand it you 
have $600,000 available for 2009, $1.4 million for 2010 for the 
analysis that needs to be done. Are those the correct numbers? 
And do you have, in your judgment, the resources necessary to 
meet the timeline for these reviews?
    Colonel Christensen. Yes, sir. Those monetary figures are 
correct, and we do have the resources. I have assigned my two 
best project managers on this. This is an important project to 
the district and to the region. Anything I have asked for from 
General Walsh and from Headquarters, USACE, they have promised 
that they would give me. So I feel I have the resources.
    Senator Conrad. General Walsh has indicated that you will 
have available to you the resources that you need to complete 
this aggressive timeline. Is there anything that could be done 
to provide an even faster result?
    Colonel Christensen. In my estimation, no. We have taken 
every effort to compress this timeline because we know how 
important this is. And this is a very complex issue, as has 
come out.
    Senator Conrad. Okay. To the Mayors and to the county 
representatives, are there any, as far as you can see at this 
point, any showstoppers as issues for agreement to be reached 
between the cities and the counties?
    Mr. Walaker. No. But we need these people here. I mean, 
they rotate these guys like General Walsh and Colonel 
Christensen every 3 years. Is that going to be a showstopper?
    I mean, we brought these people here. They were here during 
the flood fight. They understand the problems and as they go 
forward. So if you are talking about a showstopper, I think all 
of these things can be resolved to some benefit. But to watch 
these guys be redeployed, that bothers me a little bit.
    Senator Conrad. Let me just say I watched Colonel 
Christensen in community after community, and I have high 
regard for Colonel Christensen. His professionalism and the 
absolute dedication he brought to this, I think all of us 
respect.
    Mayor Voxland, any showstoppers that you see? We should get 
them on the table. If there are things out there that are non-
starters, we need to know.
    Mr. Voxland. That I can think of at this point, no. I think 
communication is going to be a key. I think one thing that the 
four of us, the two counties and two cities, probably need to 
do is get together and figure out some way of an instant e-mail 
type communication on a very regular basis to see if something 
does crop up in the near future and the midterm future so we 
can address those right away. But at this point, I see nothing 
that would stop it.
    Mr. Walaker. How about hand-delivered communications?
    Mr. Voxland. No, you are going to have to learn how to do 
e-mail.
    Mr. Walaker. I know how to do that. I just read it, because 
it becomes public record and so forth. That is the point I was 
trying to make.
    Senator Conrad. Keith.
    Mr. Berndt. Senator Dorgan, Senator Conrad, no, I don't see 
any from the county's perspective.
    Senator Conrad. And Chairman Waller.
    Mr. Waller. Senator, I don't believe there will be any 
showstoppers. I believe there are going to be some bumps in the 
road along the way because of the different interests of each 
community or county, city or county. But I do believe that what 
I have seen is that everybody certainly understands the 
situation and certainly wants protection for our citizens.
    Senator Conrad. Okay, I just want to end on this note, if I 
can, with Colonel Christensen, because we know there is one big 
potential showstopper out there, and that is the cost-benefit 
ratio and the cost-benefit analysis, because if we don't 
achieve that, we can't achieve Federal funding.
    So I want to make certain that I understood your earlier 
answer to Senator Dorgan. With respect to a diversion, your 
initial indication is that that would have a cost-benefit ratio 
of 0.65. The combination would be 0.62. Both of those would be 
far below any cost-benefit ratio that would be acceptable for 
Federal funding. Isn't that correct?
    Colonel Christensen. Yes, sir.
    Senator Conrad. And so, the only option with respect to 
your initial calculations that would qualify for a Federal 
project would be the diking approach.
    Colonel Christensen. As a standalone alternative, yes, sir.
    Senator Conrad. As a standalone alternative.
    Colonel Christensen. However, we have to optimize those, 
and we have to make sure we are capturing all the benefits.
    Senator Conrad. Yes, I understand that you have got a 
caveat there, but still you are providing us initial 
information that is important for people to understand.
    To meet the cost-benefit ratio, my understanding is that 
you have to be above 1.0. Is that correct?
    Colonel Christensen. Yes, sir.
    Senator Conrad. And your initial indication is we are at 
1.0, but that is before optimization. Okay. So we have still 
got, hopefully, some benefits to capture there before we get a 
final determination.
    Colonel Christensen. Yes, sir.
    Senator Conrad. All right. I thank the chairman.
    Senator Dorgan. Just for the record, the calculation you 
have just described, that is the comprehensive levee system 
without or exclusive of the Southside project or including the 
Southside project and the benefits it provides?
    Colonel Christensen. It is looking at an alignment that 
would be typical of what a levee alignment would be in the city 
as a standalone, just as you sketch out what protection would 
look like from the city, a typical alignment. I am not sure I 
am answering your question there, sir. But it is----
    Senator Dorgan. I am not sure I want the answer to the 
question. But I will inquire more about that.
    Senator Klobuchar.
    Senator Klobuchar. Okay. Thank you very much.
    Just a question for the two mayors, as we can learn a lot 
from these crises when they happen and how we can improve 
things, I have said a few times that FEMA--in North Dakota and 
Minnesota, FEMA is a four-letter word, but it is not a bad one. 
Compared to the Katrina FEMA, I think that, once again, just as 
in Grand Forks and East Grand Forks, we saw a lot of good work 
out of FEMA in this area.
    Could you talk about your impressions of that and any 
improvements you think that could be made as we go forward? I 
guess Mayor Voxland first.
    Mr. Voxland. I have to say that I was extremely impressed 
with our FEMA representatives that were invited into Minnesota, 
as I understand that is how the process works. They were very 
clear from the start what their mission was. They kept re-
explaining it so that we absolutely understood. I'm very happy 
with what they did.
    So I would say I can't think of anything that I really want 
to fault them on, I'll go into our next steps with FEMA and the 
frustration of the 206 funds are probably the only thing that I 
have as we go forward, and that is not FEMA's problem. It is 
the way Federal law is written.
    Senator Klobuchar. Well, and that is actually something 
that I have talked to the Secretary of Homeland Security about. 
There is this regional funding difference. And you would hope 
when an area has the same problem, that there is a way to treat 
both sides of the river the same when they are in different 
States. But that is something that we need to work on going 
forward.
    Mayor Walaker.
    Mr. Walaker. As I get long in the tooth, I have watched 
FEMA grow. Back in 1975, 1978, 1979, FEMA was a depository for 
people that couldn't get another Federal job, okay? They had no 
skills. The laws were almost obscure.
    The rules--and that is the way they wanted it. As far as I 
was concerned, that is the way they wanted it. Because the 
flood of 1993, when they flooded the Mississippi, we had a 
flood up here later on that summer, and it got to be just 
absolutely, they were so difficult to deal with.
    This year's response, we still have some difficulties. I 
mean, but they are following the law as close as they possibly 
can. Are we disappointed in some areas? Of course we are. But 
the response and the professionalism of the FEMA today is much, 
much enhanced over what it used to be years and years ago.
    So, as far as the President is concerned, I mean, he was 
very concerned that we had all of the Federal help that we 
could and that trickle down to the process. And right now, 
sure, we still disagree over what was done in the past, the 
right of entry and so forth and the particular part of the 
cleanliness of the boulevards and so forth and the sand.
    I mean, we had 42 miles of dikes in Fargo. So we still have 
some of those to deal with and so forth. And we understand that 
some of them are going to go away. We are going to do it on PA 
and so forth, but they are good.
    Senator Klobuchar. Thank you.
    Colonel Christensen, this was interesting information for 
us about the cost-benefit analysis. I know that it is 
preliminary. But could you describe to me why that would be a 
little more information about the levee plan? Obviously, we had 
some concerns about I think Chairman Waller mentioned 7,500 
acres. We have heard 9,000 acres of some of what you described, 
Chairman Waller, of the most highly productive farmland, 
richest farmland in the country that would have been taken out 
if only the diversion plan was used.
    Was that part of what went into the consideration of the 
lower cost-benefit analysis with the pure diversion plan?
    Colonel Christensen. Yes, it was. And we only looked at the 
Minnesota side initially for this first pass through. We do 
intend to look on the North Dakota side as well. But as you 
look at both sides of the river initially, it was a little bit 
more complicated to do it on the North Dakota side. And with 
the time constraints we had, we wanted to see what a cost-
benefit ratio would look like. So we did the Minnesota side 
first.
    Senator Klobuchar. So you did it on the Minnesota side just 
because it was a preliminary thing?
    Colonel Christensen. It was a preliminary thing. We wanted 
to take a snapshot. It is less complex on the Minnesota side. 
There are less railroad crossings, less rivers to cross, less 
roads to cross.
    Senator Klobuchar. But it still came out with this higher 
cost, lower benefits basically, and part of that was this 
farmland?
    Colonel Christensen. And part of that was captured in the 
cost piece.
    Senator Klobuchar. I think that is what Collin said. He 
just said it differently than you did.
    Senator Klobuchar. Okay, so anyway, because we really do 
want to make this work so dearly. We care so much about making 
this plan work. And so, obviously, hearing this--could you tell 
me a little--is good news for us. Could you talk a little bit 
more about the levee plan and how this would work?
    Colonel Christensen. The levee plan on which we initially 
did the calculations was very similar to what they have set up 
already in the Southside project. That is the alignment we used 
to do the cost-benefit analysis initially.
    Senator Klobuchar. And Senator Conrad was asking; you have 
to get over a 1.0 cost benefit. Could some of this be--you 
talked about the possibilities of retention. We talked about 
this with some of our smaller communities, and actually, we 
have some ideas about that, some potential places for 
retention. Could that bump it up? Again, I know it is still 
preliminary.
    Colonel Christensen. And that is part of the optimization 
piece. We wanted to just get a snapshot of the standalone 
pieces, and we still have to pull in the nonstructural aspects 
and the retention upstream from the Fargo metro upstream 
storage and see how we can incorporate that.
    Senator Klobuchar. And that storage could be happening in 
both States?
    Colonel Christensen. Yes.
    Senator Klobuchar. Okay, very good, just one last question, 
Chairman Waller, when you talked about Georgetown and some of 
the other communities are they going to have a seat at the 
table as we look at this process?
    Mr. Waller. After the first meeting, flood meeting with the 
Corps, I don't think it was 15 minutes later, and I got a call 
from the mayor of Georgetown, the mayor is certainly concerned 
and really wants the information. So these communities want to 
be involved. They want to express their thoughts and their 
issues and----
    Senator Klobuchar. And was this helpful information to you 
about the cost benefit? Did that surprise you when you brought 
that up in your testimony?
    Mr. Waller. Well, from what I gathered in the initial 
information that came out, it really talked about what I 
gathered was the diversion as well as the levees. And 
retention, again, we feel--and I think there are already some 
studies out there that indicate that the two alone are not 
going to be successful without that third leg of the stool. I 
am not familiar with some of those studies, but that is what I 
have heard.
    Senator Klobuchar. Okay. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Dorgan. Senator Klobuchar, thank you very much.
    For the information of my colleagues, I am going to call on 
Congressman Peterson and Congressman Pomeroy. In about 10 
minutes, we will have the second panel up. Governor Hoeven came 
after we started, he is here and has exhibited great patience 
and General Walsh similarly, and we have a representative of 
Governor Pawlenty.
    So following the questions of my two colleagues, we will be 
submitting a list of questions, especially to the Corps, but 
also to other witnesses on this first panel. When we receive 
the responses, which we would expect within 2 weeks, we will 
make the responses publicly available so that everyone has 
access to those responses because that will complete the 
record. We are not able to ask every question in this 
circumstance, but we appreciate the cooperation of the 
witnesses.
    Congressman Peterson.
    Mr. Peterson. Thank you, Mr. Chairman.
    I will try to be brief. So this preliminary look included 
the Southside project. Is that part of the deal?
    Colonel Christensen. Yes, sir.
    Mr. Peterson. Okay. And when you were talking about 
minimizing the effect downstream, when you were asked, you said 
you were going to minimize. So with both options that you are 
looking at, at this point, there is going to be some effect 
downstream probably, right?
    Colonel Christensen. There could potentially be, but the 
goal is to get that down to zero by minimizing----
    Mr. Peterson. Do you think that is realistic to get it to 
zero?
    Colonel Christensen. Realistically, there will probably be 
some effect upstream or downstream, to some small degree.
    Mr. Peterson. But we will be able to know----
    Colonel Christensen. And we will be able to know by the 
hydrological modeling what those effects are and we will make 
sure that that is minimized.
    Mr. Peterson. And on the Southside project, Mayor Walaker, 
I don't know as much about it as I need to, but are you--you 
say you have had peer review of it, that it won't affect our 
side. I think you have mentioned that.
    Mr. Walaker. Well, Briarwood. Briarwood would have had a 
significant increase of 6 to 9 inches, and now we have got that 
down to zero. So there is a benefit to that whole area, and we 
are talking about within the district having retention and more 
retention in the legal drains, Drain 53 and Drain 27.
    Mr. Peterson. So you have it down to zero now, you think?
    Mr. Walaker. Yes, and below zero. There are some 
significant improvements there on the Southside project, and 
what we are asking the Corps of Engineers to do is to include 
that.
    If we are going to spend $161 million, we would certainly 
like to get some credit for that, and we would like to know 
that as soon as possible because there are some aspects of that 
project that we could actually start on if there wasn't going 
to be any benefit. But the cost-benefit ratio, we do not want 
to screw up the cost-benefit ratio for both cities.
    Mr. Peterson. One last question, Colonel. We had some 
meetings yesterday and last evening, and it was on this 
upstream study that was done earlier or I don't know if it was 
completed or what exactly happened. But somebody had mentioned 
and I think somebody mentioned this at one of our other 
meetings that--and I want to understand if this is correct--
that if you had 400,000 acre feet of storage upstream, it would 
only affect the crest 1.6 feet. Is that correct?
    Colonel Christensen. Those are the figures I have heard, 
sir.
    Mr. Peterson. That doesn't seem possible.
    Colonel Christensen. For the 100-year flood.
    Mr. Peterson. Pardon?
    Colonel Christensen. For the 100-year flood, 1.6 feet.
    Mr. Peterson. I guess I am not enough of an engineer to 
understand. Is there any kind of information that would help 
the understanding of that? Is there some kind of a paper that 
shows that?
    Colonel Christensen. We----
    Mr. Peterson. Okay. I would like to see it because it just 
seems kind of counterintuitive. But I mean, if that is the 
case, we struggled to get 20,000 acre feet of storage and 
400,000 is only going to give us 1.6 feet, I don't know. It is 
going to take a lot of retention to make any difference.
    Colonel Christensen. In the cost-benefit ratio, that was 
pretty low as we did that study. I think it came out to be 
about 0.25. However, we are looking at incorporating some 
ecosystem and restoration pieces in there that might drive up 
that cost benefit.
    And again, it is----
    Mr. Peterson. Is that kind of why that study was shelved or 
whatever?
    Colonel Christensen. We are still working on it, but we 
need to capture other benefits besides just the flood 
mitigation piece. And it is going to take all of these pieces 
together, the nonstructural, the structural, and whatever we 
can to pull this in to get that maximum cost-benefit ratio.
    Mr. Peterson. All right. Thank you.
    Thank you, Mr. Chairman.
    Senator Dorgan. Thank you, Congressman Peterson.
    Congressman Pomeroy.
    Mr. Pomeroy. Thank you, Mr. Chairman.
    The questions I had have largely been covered. There are a 
couple of interesting items in the testimony that I want to 
make sure are reflected in the record, and they are because you 
included them. But they deserve some emphasis.
    We get into cost-benefit ratio analysis and the Corps has a 
very well-designed criteria in terms of how you figure that. 
But I think the testimony presents reality in terms of the cost 
benefits that we also need to consider. We are going to look at 
some very expensive designs going forward.
    And yet, according to the mayor's testimony, had we not 
protected at 41, water would have extended from south of Fargo 
all the way to Interstate 94, west to Interstate 29, to west 
Fargo boundaries. It would have caused the flooding of 6,000 
single-family homes, 6,000 apartment buildings, 52,000 
residents displaced, also inundating north Fargo through North 
Dakota State University campus, as well as most of the 
neighborhoods situated along the Red River.
    That is from the mayor's testimony. And Colonel, your 
testimony reflects that the basin protection was achieved with 
a heroic effort locally, but the Corps providing 11 million 
sandbags, 141 pumps, 81,600 feet of HESCO barriers, 70 miles of 
earthen levees, and these efforts prevented nearly $3 billion 
in damages. And of that $3 billion, $2.5 billion in damages 
avoided were right here in the Fargo-Moorhead metropolitan 
area.
    So I think that is the first time I have actually seen a 
hard figure on what this successful flood fight yielded in 
terms of savings. Is that your testimony?
    Colonel Christensen. That is my testimony. And it is a very 
complex algorithm when you are doing a cost-benefit ratio for a 
project. And I am not even going to pretend I understand----
    Mr. Pomeroy. Regrettably, a cost-benefit ratio can't just 
say, look, if it floods, it is going to cost you $2.5 billion 
in Fargo-Moorhead alone, but----
    Colonel Christensen. You have those costs spread over time, 
the life of the project, and it is a very complex algorithm. 
And like I said, I can't even begin to understand it, and that 
is why I have Aaron working on that.
    Mr. Pomeroy. We are not challenging the algorithms. We will 
work with them. But we do know we have to proceed because even 
though these are going to be--these costs are going to be in 
the hundreds of millions of dollars. But on the other hand, 
this frantic effort involving these temporary measures produced 
$2.5 billion worth of savings.
    On the other hand, but for the weather turn and freezing 
all of that water out in the fields, which allowed for almost a 
staged drawdown of the water in this area, but for that freeze, 
we might not have made it. Is that your evaluation?
    Colonel Christensen. Yes, sir.
    Mr. Pomeroy. So that is tremendous risk. If you were 
running this like a business, you wouldn't want to take that 
kind of risk, this heroic effort, getting a break from the 
weather, and by the skin of our teeth avoiding a $2.5 billion 
hit.
    So thank you very much. I look forward to the next panel 
also.
    Thank you.
    Senator Dorgan. Congressman Pomeroy, thank you very much.
    Let me thank all of the witnesses. You will be receiving 
from us a list of questions that we hope you would submit back 
in 2 weeks.
    Thank you very much for your testimony today.
    We will ask the next panel to come forward. Is the Governor 
in the room? All right, we ask that the Governor and General 
Walsh come forward. Also, Commissioner Mark Holsten, Minnesota 
Department of Natural Resources, on behalf of Governor Tim 
Pawlenty.
    Let me ask that you be seated, please.
    Is Mr. Holsten in the room, Mark Holsten?
    Governor, you came after the hearing began. We appreciate 
your patience, but we wanted especially to invite you and 
Governor Pawlenty, as well as Brigadier General Walsh, to be 
with us today. I appreciate the fact that you were able to 
listen to a fair amount of the testimony from the first panel.
    I think it is important to point out that you, Governor 
Pawlenty, and a lot of folks at the State level, both Minnesota 
and North Dakota, played a very significant role in the flood 
fight this year, and we appreciate that.
    And General Walsh, as Senator Conrad indicated, you are 
almost becoming a permanent resident up here, and we appreciate 
your work as well.
    Let us begin, Governor Hoeven, with you, and we appreciate 
your being here. As I indicated to the previous panel, your 
full testimony will be in the permanent record, and you are 
welcome to summarize.
STATEMENT OF HON. JOHN HOEVEN, GOVERNOR, STATE OF NORTH 
            DAKOTA
    Governor Hoeven. Thank you, Senator.
    And greetings to you, Senator Conrad, Congressman Pomeroy, 
Senator Klobuchar, good to have you on our side of the river, 
and also Representative Peterson.
    I appreciate this meeting today and also the meeting in 
Washington, DC, where we brought local leaders, State 
officials, and, of course, the Federal delegations together to 
talk about flood protection in the Red River Valley. And 
really, it is a bi-State effort. It is a regional effort. And 
we certainly recognize that this is about permanent flood 
protection for the Fargo-Moorhead area, but really, it is about 
water management in the Red River Valley basin.
    And so, right at the outset, once again, I want to affirm 
our desire in North Dakota to make sure we are working with our 
friends in Minnesota so that this benefits people on both sides 
of the Red River.
    I also want to start out again thanking the people of 
Fargo, of Cass County, of the Red River Valley in North Dakota, 
and of Moorhead and Clay County, and the Red River Valley in 
Minnesota for the tremendous effort they put in during the 
flood fight this past spring. And the outstanding local 
leadership, Mayor Walaker and all of the local officials here, 
the county officials, and the same for Mayor Voxland, and both 
city and county officials on the Minnesota side of the river as 
well. It was unbelievable.
    And I think people all over the Nation saw North Dakotans 
and Minnesotans doing just an amazing job battling the 
floodwaters. But the thing is we can't go through that every 
year. We have got to get permanent flood protection. And I 
think that the real issue is how do we get this thing going? 
How do we get permanent flood protection going?
    And I have looked at least at the preliminary alternatives 
that the Corps has brought forward, both the levee alternative 
and also the east diversion alternative, and I know they have a 
hybrid as well.
    And I purposely started my comments out--and I have 
submitted written testimony, which is longer, and obviously you 
can look at. But I purposely started my comments out from the 
standpoint of this has to benefit people on both sides of the 
river. That is how we are approaching it. But at the same time, 
we are very anxious to get started.
    And the city leaders in Fargo and in Cass County have spent 
a lot of time and effort, approximately 4 years, on the 
Southside flood protection project. And I guess what I would 
like to offer is that that, I think, could be a good option as 
Phase I of a phased-in approach, okay?
    And there are a number of benefits to doing it that way, 
understanding, again, that this is part of a larger regional 
project. This is part of water management in the basin. This is 
part of doing more with storage of water upstream, but that you 
don't eat the whole apple in one bite. We want to get going.
    And so, from the State perspective and, I think, from the 
community's perspective, we would be in position to offer that 
up as a phase one approach to the larger Corps-sponsored 
project. It is approximately $161 million from the States, and 
we have $75 million. It is ready to go. The community is 
working on their $75 million. We have approximately $11 million 
in FEMA funding. That is the $161 million.
    We could get that project going. It would provide flood 
protection south of I-94, which is certainly a growth area for 
the community, and the project has been constructed in a way 
where there is no negative impact downstream. It does not raise 
water levels at all downstream on either the North Dakota or 
the Minnesota side of the river.
    Also, it would give us time to complete the full-blown 
plan, as well as get appropriated funding for it. So I offer 
that up as an option or an alternative to begin the process, 
get it going on a phased approach. That would also then put us 
in position to have time to get the appropriation for the full 
Corps-sponsored project. And I understand a Corps-sponsored 
project typically is 65 percent federally funded, which means a 
35 percent non-Federal share.
    So the keys for us would be that the investment that goes 
into this phase one would be credited toward the non-Federal 
share of the cost of the larger project and, second, that it 
would be taken into account properly in the cost-benefit 
analysis.
    Now I offer this as an alternative, as an option, provided 
that the community of Fargo is comfortable moving forward, the 
community of Moorhead, Cass County, Clay County, and the 
region. I also offer it up as a Phase I, if you will, to get 
going on the flood protection, recognizing that it is only part 
of the larger regional effort for flood protection and water 
management in the Red River basin.
    And so, I think, again, we are open to any and all options, 
but we are anxious to get going. Along that line as well, I 
have talked to Governor Pawlenty, both before, during, and 
after the meeting we had in Washington DC, and we have offered 
to enter into a State-to-State compact, which could include 
Federal participation or not as well.
    And I am waiting to hear back from Governor Pawlenty. He 
has been--I know he is always busy. He has been particularly 
busy as of late. But we have offered up a compact approach 
between the States, and we are waiting to hear back at this 
point as to how he would like to approach that.

                           PREPARED STATEMENT

    So I guess those are my comments. Again, I have submitted 
written testimony, but appreciate the willingness of people to 
come together. And again, I want to express our desire, on 
behalf of the State of North Dakota, to move the process 
forward and do anything we can to work with everyone at the 
local level, the State level, and with our Federal delegations 
on both sides of the river to advance the ball and get the 
permanent flood protection going.
    Thank you.
    [The statement follows:]
                 Prepared Statement of Hon. John Hoeven
    Good afternoon, Senator. Good afternoon Ladies and Gentlemen.
    Although the waters have receded, concern about flooding in the Red 
River Valley is still at the high water mark.
    As we continue our efforts to recover from the floods of 2009, we 
must not take our eye off the ball--and that ball is permanent, 
effective, and reliable flood protection for the Fargo-Moorhead area, 
as well as for outlying communities.
    The Red River of the north has exceeded flood stage--that is, 17 
feet--in roughly half of the last 100 years. This year, the Red River 
exceeded flood stage for more than 60 days, and fell below flood stage 
just last week.
    The people of Fargo and Cass County, the mayor, commissioners, and 
other local leaders did an outstanding job of battling the flood. We at 
the State level did all we could to support the flood fight with the 
North Dakota National Guard, DOT, the Highway Patrol, and other State 
resources.
    Clearly, we need more permanent flood protection for the Fargo-
Moorhead area, and we need to coordinate development of that flood 
protection with additional measures and better water management 
throughout the Red River Valley on both sides of the river.
    We are committed to working with all parties--the cities, counties, 
States, and Federal Government--to arrive at a solution that addresses 
everyone's concerns, and that doesn't adversely affect any adjacent 
community.
    Furthermore, we are committed to doing so in a timely fashion and 
with substantial State resources. To that end, we committed $75 million 
for permanent flood protection in the Red River Valley prior to the 
recent flooding. We would like to see that funding applied to our State 
match, and also to the Corps' cost-benefit criteria.
    In 2008, the U.S. Army Corps of Engineers began a feasibility study 
for a Fargo-Moorhead metropolitan area flood protection project. Under 
the Corps' current schedule, however, they will not even identify a 
final plan until January 2010, or begin construction until April 2012.
    Two alternatives have initially been advanced: the Levee 
Alternative, which would incorporate the Southside Flood Control 
Project and cost approximately $625 million; and the East Diversion, 
which would essentially create a 30 mile channel around the cities of 
Fargo and Moorhead and cost about $910 million.
    If the Levee Alternative is selected, we may have the advantage of 
being able to get underway more quickly, with the Southside Flood 
Protection project as Phase I because that project is already laid out.
    The cost of the Southside Flood Protection Project is $161 million. 
The State's $75 million, combined with local match and $11 million from 
FEMA, would enable the project to get underway, perhaps as early as 
next spring. We would like the Corps to help green-light the project by 
giving us credit for the non-Federal share of the larger project, as 
well as proper treatment in the cost-benefit analysis for the entire 
Corps project.
    The Southside Flood Protection Project would provide security from 
overland flooding that threatens people and property south of I-94, and 
also enable the city of Fargo to continue to grow to the south, helping 
to maintain the economic vitality of the whole State and region. In 
addition, it doesn't create adverse impacts downstream because it 
doesn't increase water levels.
    With the East Diversion Alternative, it's not clear at this point 
whether we would have an opportunity to proceed with an earlier Phase I 
option.
    With either alternative, however, we need the Corps' help and 
cooperation to begin any type of phased approach prior to the April 
2012 timeframe they have scheduled for beginning the project.
    I encourage the Corps to work with us to provide a phased approach, 
if possible, under either option that will enable us to move forward to 
construct permanent flood protection before the April 2012 timeframe.
    In addition, we have made an offer to the State of Minnesota to 
formalize an agreement between our States to cooperate on the 
implementation of the Corps' flood protection measures to protect 
people and property on both sides of the river.
    Considering the millions of dollars expended in the recent flood 
fight, this project needs to be a priority.
    Thank you for an opportunity to speak to this very important issue.

    Senator Dorgan. Governor Hoeven, thank you very much.
    Next, we will hear from Brigadier General Michael Walsh, 
the Mississippi Valley District Commander of the Army Corps of 
Engineers.
    General Walsh.
STATEMENT OF BRIGADIER GENERAL MICHAEL J. WALSH, 
            DIVISION COMMANDER, MISSISSIPPI VALLEY 
            DIVISION, ARMY CORPS OF ENGINEERS
    General Walsh. Thank you, Chairman. And thank you, members 
of the subcommittee.
    Before I get to my prepared comments, I just want to again 
mention that I was here at ``sandbag central''--I believe you 
mentioned it, Senator--and saw thousands of people in this 
facility working very close to heavy equipment. And from a 
safety perspective, it was just a little bit nerve-racking. But 
you guys, the local folks really had a good handle on it and 
were able to fill thousands of sandbags and really get it done.
    I took that message--I have worked flood fights on the east 
coast. I have worked flood fights on the west coast, and I have 
worked it on the center coast as well, on the Mississippi and 
now on the Red. I explained to a lot of people, as I have gone 
around, what I saw in ``sandbag central''--quickly put it on a 
truck and race to the levees. And people didn't quite 
understand what I meant by ``racing to the levees.'' They 
thought racing to the levees to put the sandbags on the levees. 
And what I was explaining to them, they were racing to the 
levees so that they wouldn't freeze the sandbags. And people 
don't understand that as well. And when I explained this to 
them, I asked how many go shopping in their local store, most 
of them--all of them raised their hand. And I said now how many 
times have you seen the frozen chickens or the frozen turkeys 
stacked on top of each other? They can't.
    So fighting a flood in this area is different than anyplace 
else that I have worked flood fighting, and so I really applaud 
the people who got it done in this area and was proud to be 
part of the team that worked on that.
    Senator Dorgan. General, that was an unusual weather 
pattern. It is normally much, much warmer up here.
    General Walsh. Sir, I worked very closely with the North 
Dakota National Guard in Iraq, and they told me how warm it is 
here in the wintertime.
    Sir, the other thing I would comment on, as you mentioned, 
the one river, one region, one cause. I think that is a very 
good charge that we should all be looking at.
    Sir, while I was sitting here, as you do know, Corps of 
Engineers, our employees are not only here in the United 
States, but we are in Iraq and Afghanistan. We have 65 of our 
people now in Iraq. And I just got a note from the Chief of 
Engineers that while returning back from a project site in 
Fallujah, Iraq, on Monday, an IED attacked one of our teams 
coming back from that project site and killed our Navy Seabee, 
one of our Corps of Engineer employees, and a State Department 
employee.
    The Chief mentioned that the employee wasn't from my 
division, but certainly, it was one of our team members. And I 
just wanted to pass that along to the subcommittee that we are 
here with you. We are also here and in Iraq and Afghanistan.
    Sir, just back to my comments, Chairman Dorgan and members 
of the subcommittee, I am honored to appear before you and 
report what the Corps of Engineers has been doing to address 
flooding on the Red River and the North Basin.
    My testimony will highlight our ongoing efforts to manage 
flood risk in collaboration with all levels of government and 
to provide the information that each citizen needs to make the 
appropriate choices regarding his or her exposure to flood 
risk.
    The Corps of Engineers, as you know, has a long history in 
the Red River basin. The Lake Traverse Project in the 
headwaters of the Red was an authorized project that started in 
1936. The Bald Hill Dam on the Sheyenne was authorized in 1944. 
The Orwell Dam on the Otter Tail River was also part of the 
1947 comprehensive plan that was proposed by the Corps of 
Engineers and was authorized in the Flood Control Acts of 1948 
and 1950.
    Now we have also built 5 reservoirs and 10 flood control 
projects in the communities on the Red River Valley. We have 
provided emergency assistance on numerous times. Our 
preliminary calculations for the 2009 flood event shows the 
Corps reservoirs, the permanent projects, and the emergency 
assistance actions did prevent $3 billion in flood damages in 
this event alone.
    Nevertheless, many of the areas still sustained significant 
flood damages this year, and further action is clearly needed 
to address flood action in the region. Flood risk management is 
not just a Federal responsibility. Rather, it is a shared 
responsibility between multiple State, Federal, and local 
government agencies, which has a complex set of programs and 
authorities.
    The authority to determine how land is used in floodplains 
and to enforce flood-wise requirements is entirely the 
responsibility of State and local governments. Individual 
citizens must also make wise choices to reduce their own flood 
risks.
    The Federal project and programs like the National Flood 
Insurance Program can help mitigate that risk, but it does not 
eliminate it. The Government needs to accurately communicate 
flood risk to its citizens so that they can make the 
appropriate choices.
    The Corps is moving away from the paradigm of flood 
protection and moving to managing flood risks and working in a 
collaborative fashion with all levels of government and private 
citizens as we seek a comprehensive solution that could 
leverage both Federal and non-Federal authorities and 
resources. The measures needed to reduce flood risk go far 
beyond the traditional structural solutions of levees, 
diversions, and flood storage.
    It is important to note that the Corps' objective when 
considering Federal investments in flood damage reduction is to 
contribute to the national economic development that is 
consistent with protecting the environment. In short, the 
economic benefits of any Federal project must outweigh its 
costs, as we have talked about earlier.
    But the low-hanging fruit on the Red River basin has been 
largely picked. For a variety of reasons, we have struggled to 
find the environment, the economically justified solutions on 
proposed projects in the recent past.
    Because the Red River floodplain is extremely flat, local 
levee projects often have no high ground to tie into. Urban 
development sits directly on marginally stable riverbanks, so 
there is little room to build a permanent line of protection.
    Even though we can clearly see the potential for 
catastrophic damages in the rare and extreme events, such 
events do occur. They occur infrequently, but as you figure out 
the cost-benefit ratio, the economic analysis stretches that 
out.
    As a result of these factors, the projects do not tend to 
move very well in a justified manner looking at an economic 
basis. Many people believe that flood storage is the best long-
term solution to flooding. While we agree that flood storage is 
part of the solution in certain circumstances, they are not 
always and they do provide significant challenges, and they 
vary by region to building reservoirs, and that limits their 
effectiveness.
    The best reservoir sites in the Red River basin have 
already been built, and there are significant environmental 
concerns with the remaining if we are looking at modifying 
those. Over 90 percent of the wetlands originally present in 
the Red River basin have been drained.
    Building flood storage on this drained landscape is 
possible, especially where drainage systems are less effective. 
Unfortunately, because the valley is so flat, off-channel 
storage projects typically require hundreds of acres of land to 
be surrounded and a constructed embankment around it.
    From the Federal perspective, it is difficult to find 
economic justification for this type of project, and there is 
often local resistance to taking agricultural land out of 
production.
    Despite these obstacles, flood storage projects can be 
successfully implemented by local agencies, and we have seen 
that in Cass County at the Maple River Dam. And the North 
Ottawa impoundment project and the Bois de Sioux watershed 
district in Minnesota are two recent projects that worked well.
    The first step in minimizing future flood damage is to 
restrict development like in urban, rural, agricultural, 
industrial, and commercial areas, in areas that are prone to 
flooding, in the floodplains. We urge communities responsible 
for making land use decisions to act wisely in this regard and 
restrict development in areas that are known to be at high 
flood risk.
    If communities can limit development within floodplains, 
the largest and most expensive issues related to flood risk 
management has been resolved before there is even an issue to 
be addressed. The Corps is currently engaged with several 
construction projects on the Red River basin, including the 
Wahpeton in North Dakota, Breckenridge, Fargo, Roseau in 
Minnesota, and we are also studying projects in Ada and the 
Wild Rice River basin, as well as Devils Lake, the Fargo-
Moorhead project that we are talking about today, and many of 
the Red River watershed projects that are upstream.
    Rather than describing those in detail, I will provide a 
fact sheet for you guys to go through later. But the Corps is 
committed to completing these studies and projects with both 
our Federal and non-Federal funding as it is allowed.
    I would like to highlight one additional study. That is the 
Red River basin-wide watershed study. This is a study that 
began in June 2008, and its purpose is to develop a watershed 
management plan for the entire Red River basin.
    The first study task was to collect detailed topographic 
information using LIDAR technology in cooperation with the 
International Water Institute and several local partners. The 
data from this effort is already being used to inform 
decisionmakers.
    The next step is to use this information and put together 
topographic data to build and refine hydrologic and hydraulic 
models, then using those models to guide watershed management 
planning throughout the basin.
    This study is not intended to recommend or justify Federal 
projects. Instead, it is to provide better tools and data for 
local and State decisionmakers.
    In conclusion, the Corps of Engineers is committed to 
working with our partnerships and partners with the State and 
local agencies to develop a long-term flood risk reduction 
strategy. The Federal projects will never totally eliminate 
flood risk in the Red River basin. Citizens need to take 
responsibility for reducing their own flood risks.

                           PREPARED STATEMENT

    Where Federal projects can be justified, we will pursue 
them in concert with the local communities as they so desire. 
Where Federal studies can inform local decisionmakers, we will 
work with the project partners to conduct them. All levels of 
government must work together to manage flood risk and empower 
citizens to make wise choices.
    Thank you for allowing me to testify here today, Mr. 
Chairman.
    [The statement follows:]
        Prepared Statement of Brigadier General Michael J. Walsh
    Chairman Dorgan and members of the subcommittee, I am honored to 
appear before you to report on what the Corps of Engineers is doing to 
address flooding in the Red River of the North basin. My testimony will 
highlight our ongoing efforts to manage flood risk in collaboration 
with all levels of government and to provide the information each 
citizen needs to make appropriate choices regarding his exposure to 
flood risk.
    The Corps of Engineers has a long history in the Red River Basin. 
The Lake Traverse project in the headwaters of the Red River was 
authorized in the Flood Control Act of 1936. Baldhill Dam on the 
Sheyenne River was authorized in 1944. Orwell Dam on the Otter Tail 
River was part of a 1947 comprehensive plan proposed by the Corps and 
authorized in the Flood Control Acts of 1948 and 1950. We have built 5 
reservoirs and 10 flood projects in communities in the Red River 
valley. We have provided emergency assistance numerous times. Our 
preliminary calculations from the 2009 flood event show that Corps 
reservoirs, permanent projects and emergency assistance actions 
prevented nearly $3 billion in flood damages in that event alone. 
Nevertheless, many areas still sustained significant flood damage this 
year, and further action is clearly needed to address flooding in the 
region.
    Flood risk management is not just a Federal responsibility. Rather, 
it is shared between multiple Federal, State and local government 
agencies with a complex set of programs and authorities. The authority 
to determine how land is used in flood plains and to enforce flood-wise 
requirements is entirely the responsibility of State and local 
government. Individual citizens also must make wise choices to reduce 
their own flood risk. Federal projects and programs like the National 
Flood Insurance Program can help mitigate the risk, but can not 
eliminate the risks. The Government needs to accurately communicate 
flood risk, so citizens can make appropriate choices. The Corps is 
moving away from the paradigm of ``flood protection'' to one of 
managing the risk of floods in collaboration with other governmental 
partners and private citizens as we seek comprehensive solutions that 
would leverage Federal and non-Federal authorities and resources. The 
measures needed to reduce flood risk go far beyond traditional 
structural solutions of levees, diversions and flood storage.
    It is important to note that the Corps' objective when considering 
Federal investments in flood damage reduction is to contribute to 
national economic development consistent with protecting the 
environment. In short, the economic benefits of any Federal project 
must outweigh its costs. The ``low hanging fruit'' in the Red River 
basin has largely been picked. For a variety of reasons, we have 
struggled to find economically justified solutions for proposed 
projects in recent years. Because the Red River flood plain is 
extremely flat, local levee projects often have no high ground to tie 
into. Urban development sits directly on marginally stable riverbanks, 
so there is little room to build a permanent line of protection. Even 
though we can clearly see the potential for catastrophic damages in 
rare and extreme events, such events occur too infrequently to carry 
much weight in the economic analysis. As a result of these factors, the 
projects do not tend to be very well justified on an economic basis.
    Many people believe that flood water storage is the best long-term 
solution to flooding. While we agree that flood storage is part of the 
solution in certain circumstances, there are always significant 
challenges--that vary by region--to building reservoirs and limits to 
their effectiveness. The best reservoir sites in the Red River Basin 
have already been built, and there are significant environmental 
concerns with modifying the few remaining natural ravines. Over 90 
percent of the wetlands originally present in the Red River basin have 
been drained. Building flood storage on this drained landscape is 
possible, especially where drainage systems are less effective. 
Unfortunately, because the valley is so flat, off-channel storage 
projects typically require hundreds of acres of land surrounded by 
constructed embankments. From the Federal perspective, it is difficult 
to find economic justification for this type of project, and there is 
often local resistance to taking agricultural land out of production. 
Despite these obstacles, flood storage projects can be successfully 
implemented by local agencies. The Maple River dam in Cass County, 
North Dakota and the North Ottawa Impoundment project in the Bois de 
Sioux Watershed District in Minnesota are two recent examples of 
locally implemented projects.
    The first step in minimizing future flood damage is to restrict 
development--urban, rural, agricultural, industrial, and commercial--in 
the areas within the flood plain. We urge the communities responsible 
for making land-use decisions to act wisely in this regard, and 
restrict development in areas that are known to be at high flood risk. 
If communities can limit development within the flood plain, the 
largest and most expensive issue related to flood risk management has 
been resolved before it ever has become a problematic issue.
    The Corps is currently engaged in several construction projects in 
the Red River basin, including projects at Wahpeton, ND; Breckenridge, 
MN; Fargo, ND; and soon Roseau, MN. We are also studying projects in 
Ada, MN; the Wild Rice River basin in MN; Devils Lake, ND; the Fargo-
Moorhead Metropolitan area; and the Red River watershed upstream of 
Fargo-Moorhead. Rather than describing all of these efforts now, I will 
provide a fact sheet with details and points of contact for the 
subcommittee members' information. The Corps is committed to completing 
these studies and projects as Federal and non-Federal funding allows.
    I would like to highlight one additional study--the Red River 
Basin-wide Watershed Study. This study began in June 2008, and its 
purpose is to develop a watershed management plan for the entire Red 
River basin. The first study task was to collect detailed topographic 
information using LIDAR technology in cooperation with the 
International Water Institute and several local partners. The data from 
this effort is already being used to inform decisionmakers in the 
basin. Next steps include using the topographic data to build and 
refine hydrologic and hydraulic models, then using the models to guide 
watershed management planning efforts throughout the basin. This study 
is not intended to recommend or justify any Federal projects; instead, 
it is to provide better tools and data to local and State 
decisionmakers.
    In conclusion, the Corps of Engineers is committed to working in 
partnership with State and local agencies to develop long-term flood 
risk reduction strategies. Federal projects will never totally 
eliminate flood risk in the Red River Basin, and citizens need to take 
responsibility for reducing their own flood risk. Where Federal 
projects can be justified, we will pursue them in concert with local 
communities. Where Federal studies can inform local decisionmakers, we 
will work with project partners to conduct them. All levels of 
government must work together to manage flood risk and empower citizens 
to make wise choices.
    Thank you for allowing me to testify here today. Mr. Chairman, this 
concludes my testimony. I would be happy to answer any questions you 
may have.

    Senator Dorgan. General Walsh, thank you very much.
    Commissioner of the Minnesota Department of Natural 
Resources, Mark Holsten, who is here testifying on behalf of 
Governor Pawlenty.
    Mr. Holsten.
STATEMENT OF MARK HOLSTEN, COMMISSIONER, MINNESOTA 
            DEPARTMENT OF NATURAL RESOURCES ON BEHALF 
            OF HON. TIM PAWLENTY, GOVERNOR, STATE OF 
            MINNESOTA
    Mr. Holsten. Thank you, Senator.
    On behalf of Governor Pawlenty, I want to send his 
apologies for not being able to be here today, but he wants me 
to assure you that doesn't lessen the importance that Minnesota 
has placed on flood damage reduction.
    As the DNR, as commissioner of the Department of Natural 
Resources, we administer floodplain management programs and the 
State's flood hazard mitigation program. In addition, we 
administer the regulatory programs that address impacts to 
public waters and dam safety.
    The Governor and our legislature this spring passed a 
bonding bill that will provide $50 million additional resources 
to flood hazard mitigation projects into the State and $17 
million for disaster relief here to the Red River Valley.
    Minnesota and North Dakota have been collectively dealing 
with floods for many years. The 1997 flood disaster brought a 
renewed focus to floodplain management and disaster 
preparedness. Much has been done since then. Unfortunately, 
there is still much to do.
    It was very gratifying for me to be able to fly over 
Breckenridge this spring during the flood to see that flood 
project, to see how that worked for the Breckenridge community 
and also being able to be on ground at East Grand Forks to see 
how that Federal project protected that community at that peak 
flood stage this spring.
    First of all, I think it would be helpful if we looked back 
specifically to Minnesota. Floods have been part of our history 
here in the Red River Valley, as for North Dakota also. But the 
floods that occurred in 1826, the significant floods in 1897, 
1997, and 2009, each flood is unique and has a different impact 
throughout the valley.
    We recognize floods are here to stay, and we need to better 
manage the risks of even greater events in the future. In the 
mid 1990s, impoundment projects on the Red River Valley in 
Minnesota were at a standstill. There was a U.S. Corps of Army 
Engineers moratorium on issuing permits for new impoundments, 
and that led to a joint State-Federal cumulative impact EIS.
    The EIS was never completed due to the differences between 
the parties who were involved in development of that. That led 
to a formal mediation process that began in 1997 and ended in 
1998. That mediation recognized the needs for 100-year flood 
protection for cities and a 10-year protection for farmland.
    The mediation established a joint planning process that has 
proven to be very successful. Each watershed has a flood damage 
reduction workgroup that reviews and develops projects. Since 
then, numerous projects have been completed, both with State 
and local funding.
    Seven impoundment projects have been completed or are under 
construction--Agassiz Valley, North Ottawa, PL566 upstream of 
Warren, Brandt/Angus, Fusillit, Easton, Riverton Township, 
Mattson-Slew.
    The North Ottawa project, as the General spoke about 
earlier, had 18,000 feet of acre storage of water that helped 
to prevent or reduce the flow of water to the Breckenridge area 
this spring.
    These impoundments through that mediation process met the 
concerns of what that mediation process brought out, the 
concerns for flood control, the providing of the safety of our 
public, and the environmental benefits that those impoundments 
can bring.
    The 1997 flood provided an impetus for significant State 
funding to address flood mitigation projects. Local 
governments, with the assistance of the State and Federal 
partnership, have completed projects in Warren and East Brant. 
There are three currently ongoing, as the General talked 
about--Ada, Breckenridge, and Roseau.
    Federal funding is still needed to complete these projects, 
and you can guess that there will be additional communities 
coming in for additional assistance, such as Oslo, Argyle, 
Hendrum, East Georgetown, and Halstead. From a practical point, 
a point of concern that we have is the length of time and the 
cost of pursuing Federal projects. For example, Breckenridge 
project over the years was delayed while the Corps waited for 
Federal assistance to be able to complete that project.
    While the Corps has been a valued partner and does a lot of 
good work, that study process has forced us to move forward on 
other projects that could have been Federal projects, such as 
Crookston and Oakport Township. Waiting for that and the risk 
associated with that has forced us, as a State, to move in with 
those local units of government, and that is just something we 
wanted to bring out for the record.
    There are a couple of things that we would point out from 
Minnesota's perspective that would help from the Federal 
Government. One is provide a cost control mechanism for 
projects. As the General talked about, it is a very complex 
system of local, State, and Federal funding. Having the ability 
to control those costs and the times associated and clear 
understanding of who is responsible for cost overruns, 
preferably the Army, would be helpful.
    Utilizing, as the General also talked about, the best 
science around the hydrology, the hydrology information that we 
have collected from these previous floods to be able to 
determine floodplain management and a focus on risk management.

                           PREPARED STATEMENT

    We would also like to stress the point that Federal 
assistance to help the States out, to be able to go into these 
localized projects would be of great help at this time.
    [The statement follows:]
                   Prepared Statement of Mark Holsten
    Mr. Chairman, Governor Pawlenty could not be here today but that 
does not lessen the importance that Minnesota has placed on flood 
damage reduction. I am Mark Holsten, Commissioner of the Minnesota 
Department of Natural Resources.
    The DNR administers the floodplain management program and the 
State's flood hazard mitigation program. In addition we administer a 
regulatory program that addresses impacts to public waters and dam 
safety. This legislative session Minnesota passed a bonding bill that 
has $50 million for flood hazard mitigation projects and a $17 million 
disaster relief bill that addresses recovery needs in the Red River 
Valley.
    Minnesota and North Dakota have been collectively dealing with 
floods for many years. The 1997 flood disaster brought a renewed focus 
to floodplain management and disaster preparedness. Much has been done 
since then and unfortunately there is still much to do. It was 
gratifying to visit East Grand Forks at the height of this years flood 
and see how effective the Federal flood control project was working. 
Additionally the diversion channel that was constructed as part of the 
Whapeton/Breckenridge project effectively reduced the flood stage even 
though there was more water in the system.
    First it will be helpful to look back. Floods have been a part of 
the history of the valley for many years with the flood of record 
having occurred in 1826 and significant floods in 1897, 1997, and 2009. 
Each flood is unique and they have different impacts throughout the 
valley.
    We recognize floods are here to stay and we need to be better at 
managing the risk of even greater events in the future. We need to 
build out of harms way instead of trying to control the inevitable next 
flood.
    In the mid 1990s impoundment projects in the Red River Valley in 
Minnesota were at a standstill. There was a USCE moratorium on issuing 
permits for new impoundments; and that led to a joint State/Federal 
cumulative impacts EIS. The EIS was not finalized due to significant 
differences between the parties. This led to a formal mediation process 
that began in 1997 and concluded in 1998. The mediation recognized the 
need for 100+ year protection for cities and a 10-year protection for 
farmland.
    The mediation established a joint planning (early coordination) 
process that has proved to be quite successful. Each watershed has a 
flood damage reduction work group that reviews and develops projects. 
Numerous projects have gone through this process and have received both 
State and local funding. Seven impoundment projects have been completed 
or are under construction including; Agassiz Valley, North Ottawa, 
PL566 upstream of Warren, Brant-Angus, Euclid-East, Riverton Township, 
and Manston Slough. North Ottawa has 18,000 acre feet of storage and 
helped reduce flows to Breckenridge this spring. These impoundments are 
all off channel projects that have met the work groups concerns for 
flood control, environmental enhancements, and safety. On channel dams 
will continue to be difficult to permit.
    The 1997 flood provided an impetus for significant State funding to 
address flood mitigation projects. Local governments with the 
assistance of State and Federal partners have completed community 
projects in Warren and East Grand Forks. There are three ongoing 
Federal projects in Ada, Breckenridge/Whapeton, and Roseau. Federal 
funding is still needed to complete these. There will likely be other 
requests from smaller communities for assistance like Oslo, Argyle, 
Hendrum, Georgetown, and Halstad.
    A concern is the length of time and the cost of pursuing a Federal 
project. For example the Breckenridge project was delayed for years 
because of a lack of Federal funds. This results in more risk exposure 
to the city and an increase in costs due to inflation. After a project 
commences with the USCE the inflation costs should be a Federal 
responsibility if the project is delayed.
    While the USCE has been a Federal partner on some projects, their 
study process resulted in projects in Crookston and Oakport Township, 
moving ahead without them because the risk was too great to wait for 
the possibility of Federal assistance.
what can the federal government do to help minnesota reduce future risk 
                             from flooding?
  --Ensure consistent management across borders and Federal regions.
  --Provide a mechanism for cost control on projects:
    --Including when a contract is utilized that costs more than the 
            low bid, the Federal Government should pay the additional 
            costs without a local cost share.
    --Inflation costs due to Federal delays should be borne by the 
            Federal Government.
  --Utilize the best science to address flooding--when new hydrology is 
        available it should be used for floodplain management. Need to 
        focus on risk management not avoiding the need for flood 
        insurance.
  --Have a means to provide funding directly to the States without the 
        need for a Federal project and the cost and time issues 
        associated with that.
    Thank you for the opportunity to present these brief comments about 
Minnesota's floodplain management and mitigation programs. We will 
continue to work with North Dakota and Congress to address these issues 
and to reduce the flood risk for our citizens.

    Senator Dorgan. Mr. Holsten, thank you very much.
    Let me just observe that the delay on funding for the 
Breckenridge project no longer exists, since I became chairman 
of the subcommittee. Would you agree with that?
    Mr. Holsten. Senator, I would wholeheartedly agree with 
that.
    Senator Dorgan. Thank you very much.
    We are providing that funding, and we will continue to do 
that.
    Governor, let me just ask a couple of questions about this 
issue. I understand you are ready to proceed on the Southside 
project and wish to get credit against a future project, but it 
is probably not possible to get credit against a future project 
that doesn't yet exist.
    I think if a future project is defined and available, at 
that point, I think that you have raised a legitimate question. 
If the State and local government would proceed on the 
Southside project with its own funding, could it get credit as 
part of the local share for the more comprehensive project that 
is then defined?
    But the ready-to-go piece, are we clear with Minnesota and 
Moorhead at this point on the Southside project, or is there 
more to do before we are ``ready to go?''
    Governor Hoeven. Well, I think that is the purpose of these 
discussions that we are having. The meeting we had in 
Washington, DC, the meetings that Mayor Walaker and Mayor 
Voxland are having, this meeting today is to find the answer to 
that question.
    Granted, it would have to be part of the plan. I mean, we 
recognize and acknowledge that. But you are talking about a 
timeline with the Corps where they are going to come out with a 
plan in 2010 and then construction in 2012. So on behalf of the 
State of North Dakota, we are offering this as a phase one to 
that if it can be incorporated into the planning process, both 
for the cost benefit and for the non-Federal--getting credit 
for the non-Federal share of the cost.
    And this is exactly the kind of dialogue that we are having 
today and that we are having on an ongoing basis, local 
officials to local officials, State to State, Federal 
delegation to Federal delegation, to find out if that is 
possible to move forward as part of the planning process.
    Senator Dorgan. From my standpoint, I think that has merit, 
to the extent that there is then a consensus developed on the 
more comprehensive project against which this contribution 
could count.
    We would have to work on how to do that in Federal law. But 
again, I think a first step has merit, presuming that the rest 
of what we have discussed today actually bears fruit, and that 
is the development of a consensus on a project. I appreciate 
both the interest of local government and the State government 
to begin as soon as the rest of those hurdles are cleared.
    Governor Hoeven. Well, and Representative Peterson and 
others have brought forward other projects in the region. We 
just got done talking about Breckenridge, for example. You 
know, we want to get as many of these things going as we can as 
part of a basin-wide effort for water management, flood 
protection.
    Senator Dorgan. Yes, Wahpeton-Breckenridge is in a 
different situation because that is an established project that 
is--the proposition is correct that there was not adequate 
funding for Breckenridge for a while. I am correcting that. But 
that is an established project that has been developed.
    There are other communities which have been discussed that 
do not have, at this point, Corps projects. But when they do 
move ahead with Corps projects, we should try to get them 
funding.
    Governor Hoeven. And that is accurate, and we held up on 
our flood protection in Wahpeton, pending Breckenridge getting 
that funding in place. In other words, we waited to finish our 
project until they had the funding so they could finish theirs.
    Senator Dorgan. Didn't have any choice.
    Governor Hoeven. Right.
    Senator Dorgan. And that makes the point clearer than 
almost anything we could say today, that both sides of the 
river have an impact on whatever is done on any side of the 
river.
    Governor Hoeven. Exactly. That is the point I am making. It 
has got to be done together.
    Senator Dorgan. Senator Conrad.
    Senator Conrad. Thanks again, and thanks to this panel.
    I would like to go to get on the record because I think it 
is important to do because we keep getting questions about 
1997, what occurred after 1997, why wasn't there a Federal 
project? I just want to make clear, from my perspective, that 
this is what occurred after 1997.
    The city came to us with the Southside project. We got 
$400,000 of Corps funding to do a reconnaissance study of that 
project. Subsequently, the city and the State came to us and 
said they were not interested in pursuing a Federal project. 
And the reasons that we were given at the time that they did 
not want to pursue a Federal project were the following.
    No. 1, it was only a $29 million project at that point, and 
we had already secured $11 million of FEMA money that could be 
applied to it. That was mitigation money. So it was not--while 
that was Federal money, it was not a Federal project because it 
wasn't going to be Corps funded, funded by the Corps of 
Engineers.
    No. 2, they were concerned about a delay if it was a Corps 
project because Corps had other major projects underway, and 
they were concerned that there would be a delay that would go 
on too long. Well, subsequently, you look back, Grand Forks got 
a project completed, Wahpeton funded, on the brink of 
completion.
    Third and this is the thing I want to ask General Walsh 
about, I was told at the time one reason they didn't want to 
proceed with a Corps project--in other words, a Federal 
project--was because of development land to the south of Fargo 
that they wanted to get protection for. And they were concerned 
if it was a Corps project that would not be included, or it 
wouldn't meet the cost-benefit test.
    So I am interested, General Walsh, in probing that 
question. We still have that issue because Fargo is continuing 
to grow. Fargo needs room to grow. Fargo's natural path, one of 
the significant paths is south.
    How would that potential development land be treated for 
the purposes of the cost-benefit analysis? If the city of Fargo 
wanted to include that, would that create a problem for the 
cost-benefit analysis?
    General Walsh. Sir, it would depend on the benefits. 
Certainly, if the benefits are in an urban area and you are 
protecting a large factory, you would get much higher benefits 
than you would be on----
    Senator Conrad. Development land.
    General Walsh [continuing]. A developable land.
    Senator Conrad. Yes, well, that is exactly the issue. And I 
think, in the interest of everybody having kind of the full 
information before them, this is going to be a key question for 
all of us going forward. Because Fargo needs--they need growth 
room. This city is growing. It is dynamic.
    And obviously, when you calculate a benefit, if it is not 
developed land that has got potential for development, it is 
not yet developed, that has much less benefit in the formula 
than land that has been developed. And so, if we are at 1.0--I 
listened very carefully to Colonel Christensen here--we are at 
1.0, we are on the tipping point of this being, meeting the 
cost-benefit test.
    And of course, we have got a lot of other things to 
consider. We have got 100-year coverage. We have got 250-year 
coverage. We have got 500-year coverage. And what kind of cost-
benefit test we would get on each of those alternatives.
    So I just think it is very important that we get on the 
record here these issues and that we all understand to the 
extent development land is included, it is probably not going 
to be treated very well for the purposes of cost-benefit test, 
and we have got a close call here before it is optimized.
    We understand there are other things that have to be 
entered into calculation. But I think it is just important we 
get that on the record.
    Senator Dorgan. Let me just say that that issue exists all 
across the country on flood control projects, and the key, from 
the Corps' standpoint, and it makes perfect sense, of course, 
is that when you develop a cost-benefit ratio, you are talking 
about what the cost-benefit ratio is to protect that which 
exists.
    But rather than trying to provide protection for something 
that doesn't yet exist, the Corps would much prefer that if 
there is a risk to that area that they move elsewhere and build 
where there is not such a risk. Therefore, in the calculation 
of a cost-benefit ratio, future development scores very, very 
low, if at all.
    It is a perfectly logical thing for the Corps to do from 
the outside, to say if you want to protect this area for future 
development, it is not going to score very well because we 
would prefer you build on higher ground somewhere else.
    Senator Conrad. Can I add just one other point? And that is 
that we also have the issue of floodplain. Because there is, as 
I understand, an order out there to discourage development in 
the floodplain, and of course, I mean, all of this is 
floodplain. So that becomes another issue as we go forward.
    And you know, I think we have got to think very carefully 
about the future of this community because the development 
opportunity, at least a significant part of it for Fargo, is to 
move south. That is all floodplain, much of it not yet 
developed, and we are going to have to calibrate very closely 
here that cost-benefit test if we are going to meet it and be 
able to qualify for that significant pot of Federal funding.
    Senator Dorgan. Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Mr. Chairman.
    Brigadier General Walsh, you talked about some of the 
projects in Minnesota, and Chairman Dorgan mentioned the 
Breckenridge project, which has been long in getting completed. 
And we were just there yesterday and made the final request for 
that.
    But could you just talk a little bit about some of the 
other Army Corps projects--people get very antsy to get these 
done--Roseau and Crookston, as well as what is happening with 
Ada and Wild Rice?
    General Walsh. Ma'am, a lot of them are quite detailed. I 
can talk about them or submit them for the record.
    Senator Klobuchar. Maybe if you just want to mention what 
is happening in Crookston and Roseau?
    General Walsh. In Crookston, as I look here, the work to 
repair the berms is scheduled for this September. So we should 
be starting to work on that this year.
    On Roseau, we are preparing the plans and specifications 
for the Roseau project. The project was authorized, as you 
know, in 2007. The recommended plan is for a 150-foot east 
diversion plan with the associated recreation features. I am 
not quite sure when we are going to start.
    Senator Klobuchar. But, no, that is helpful. It is just we 
want to get those done as soon as possible, as you can imagine.
    The other question I had, in your opinion, looking at 
projects in metropolitan areas like these, larger towns, how 
important is it across the country to have consensus at those 
town levels before the Army Corps goes forward with a project?
    General Walsh. It is absolutely essential that we have from 
the local governments what they want for us to formulate. 
Planning is a very messy business. You must get a lot of people 
in a room with different thoughts and, from that, develop a 
plan.
    I know I heard from the previous panel there are a lot of 
people talking about the Corps plan next year, and I would just 
hope that that terminology changes to be the one plan, the 
consensus plan, as opposed to the Corps plan.
    Senator Klobuchar. Do you have examples in other parts of 
the country where people were able to quickly reach a consensus 
and other examples where they didn't?
    General Walsh. Well, certainly, East Grand Forks and Grand 
Forks is the example that I carry around in all my speeches. 
People just need to meet on both sides of the river in 
different States and agree how they want to proceed forward. 
And there are hundreds and hundreds of examples.
    For instance, in Napa in California, there were three 
attempts to come up with a flood damage reduction plan there, 
and the different counties couldn't agree on one. The attempts 
just fell apart all three times. Until finally, the three 
counties got together, signed an agreement, a legal binding 
document that pushed that project forward and that project is 
underway.
    Senator Klobuchar. Thank you.
    Mr. Holsten, Representative Peterson and I were just in 
Oslo and Hendrum, some of these smaller communities. I mean, 
they had a ring dike around the entire community, and for weeks 
they were going in by water. Are those types of communities 
going to be able to apply for some of this money?
    I know Senator Langseth had worked very hard on getting 
those funds. And as you said, the Governor was supportive of 
them. What will that funding cover, that flood funding?
    Mr. Holsten. Senator, the projections for the 2009 bonding 
bill, we are looking at a number of projects dealing with--
Roseau has multiple phases or multiple aspects at Roseau. 
Breckenridge and Ada are the ones of particular note. We are 
also looking at additional resources. Those are ones where we 
have State and Federal partnership.
    These dollars are also looking at Crookston, North Ottawa, 
and Agassiz Valley. Moorhead has a number of different 
components to its dollars, both it is not known to detail the 
scope at time for Georgetown, Oslo, Preston, and Hendrum. But 
we have approximately $2 million that we have set aside for 
that.
    But again, until those projects are clearly defined----
    Senator Klobuchar. I understand.
    Mr. Holsten. The way we also manage our State resources, it 
is based upon project ready and whether it is a State-Federal 
partnership and local matches that are required.
    Senator Klobuchar. Okay. So we can urge them to at least 
approach you about some of these projects.
    Mr. Holsten. Absolutely. We are working with all of those 
communities in the Red River Valley.
    Senator Klobuchar. Okay. Thank you very much. And thank 
you, Governor Hoeven.
    Senator Dorgan. Thank you.
    Representative Peterson.
    Mr. Peterson. Thank you, Mr. Chairman.
    Don't forget St. Vincent, okay? That is one other community 
that has some needs up there that probably can't get dealt with 
otherwise. So----
    General Walsh. It is on the list, Congressman.
    Mr. Peterson. And the other--I just wanted to say that I 
talked about the Southside project before, but I don't think 
that there is consensus yet on the Minnesota side, from what I 
hear. There is no question.
    And I think they have said today they are going to try to 
work those out, and everybody seemed to be on the page they are 
trying to work it out. But there are questions. And I don't 
know exactly how people are going to get comfortable that this 
doesn't affect the Minnesota side without the Corps coming in 
and saying it doesn't. You are kind of going ahead of the Corps 
having--I mean, you are not going to be able to say that, are 
you, until you get the whole study done?
    So I don't know how we get the assurance for the residents, 
the community, and the leaders. I think that is kind of the 
question. So we want to work with you, but I don't think we are 
there yet, and hopefully, we can work through it.
    General Walsh. That is why we are working on the dialogue, 
to see if we can get there.
    Mr. Peterson. Thank you.
    Senator Dorgan. Congressman Pomeroy.
    Mr. Pomeroy. Thanks, Mr. Chairman.
    I took a slightly more positive conclusion away from our 
Washington, DC, meeting than the comments of my colleague 
Collin just reflected. I understand we have got issues to work 
on. Nobody is going to blow anything by anybody. This is going 
to be a consensus resolution. We all get that.
    And in the early stages of these many, many meetings, as we 
work this through and the studies progress, I think we are 
going to have better luck if we talk about the process rather 
than talk about the reservations. We all understand--the 
reservations are just kind of a matter of record. We all get 
that.
    But if we talk about how concerned we are at every time we 
get a chance, we may never get past these concerns. So let us 
just let the process work its will and I think these studies 
are going to be enormously helpful in terms of guiding us, 
giving us the information we will have to make informed 
judgments.
    General Walsh, you have got a couple of things in here that 
I want to note in your testimony. And as a proclaimed honorary 
citizen of Fargo, we expect a little more of you than some of 
this----
    Senator Conrad. He hasn't filed his returns yet.
    Mr. Pomeroy. Some of the qualified comments you make in 
your testimony, you indicate, ``Federal projects will never 
totally eliminate flood risk in the Red River basin. The 
citizens need to take responsibility for reducing their own 
flood risk.'' We absolutely get that.
    You go on to say, ``Where Federal projects can be 
justified, we will pursue them in concert with local 
communities.'' You indicate in your testimony the low-hanging 
fruit has already been done. But obviously, where circumstances 
compel, we have to act. Circumstances compelled the response in 
Grand Forks and East Grand Forks. That wasn't low-hanging 
fruit.
    And yet, to be in those communities, as you were, during 
this flood event with people that woke up every day pinching 
themselves. They couldn't believe it. That is the first time in 
the history of this region, major flooding and the citizens of 
East Grand Forks and Grand Forks secure.
    It goes to show you what permanent flood protection can 
achieve, and so, obviously, when driven by circumstance has to 
be part of the response. Now how do we get there? Will we get 
there by the cost-benefit analysis? And this is a part of your 
testimony that maybe concerns me the most.
    You indicate, ``Even though we see the potential for 
catastrophic damages in rare and extreme events, such events 
occur too infrequently to carry much weight in the economic 
analysis. As a result of these factors, the projects do not 
tend to be very well justified on an economic basis.''
    What we are seeing is that the rare and extreme event is 
becoming commonplace up here. The 100-year flood is the decade 
flood, and we have constantly amazed ourselves at having 
survived a once-in-a-lifetime occurrence, and just a few years 
down the road we are fighting another one even more 
threatening.
    I remember one time during the flooding, I talked to 
Colonel Christensen about this. And he indicated there was some 
effort being made to have models reflect that 100-year events 
aren't 100-year events anymore. Do you acknowledge that your 
testimony may give way to some evolution of these models to 
capture what we are actually experiencing? I mean, again, we 
have come to know the 500-year event, the 100-year event. These 
are really meaningless to us because we seem to be seeing them 
many times in the course of a career.
    And therefore, the modeling, which is part of your cost-
benefit ratio determination, needs to reflect we saved, by your 
own figures, $2.5 billion in Moorhead-Fargo. We absolutely 
believe that it is not going to be 100 years until we face that 
kind of threat again. Will your models reflect that perhaps 
this isn't rare and extreme? This is basically a cloud hanging 
over the head of this community that needs to be addressed.
    General Walsh. Yes, sir. And that is what the LIDAR study 
that I talked about in my testimony should help us figure out 
whether the 100-year was the 100-year.
    And also, the second item is we are changing our vernacular 
from--I have explained to people from California to New York 
that 100-year is just a statistical number, and we are 
reflecting back to 1 percent chance a year of flooding, so that 
people don't think this is only going to happen once every 100 
years.
    You have a 1 percent chance every year of a flood if you 
live in that type of a flood zone. So we are trying to change 
the vernacular as well.
    Mr. Pomeroy. I appreciate changing the vernacular. But I 
also appreciate changing the percentages. If Devils Lake, for 
example, was a jackpot, we would have won the house several 
times over because we seem to keep hitting that 1 percent or 
smaller.
    And frankly, in Fargo-Moorhead, we feel like we have been 
hitting that 1 percent regularly. One percent has got to be 
bigger than 1 percent, or we wouldn't be hitting it that often.
    Thank you, General. Your honorary status still is secure 
with me.
    General Walsh. Thank you, sir.
    Senator Dorgan. Let me make just a brief final comment. I 
know that there are a lot of people who, having been through 
this flood season this spring and been very concerned about 
whether they would prevail or lose their property or have to 
evacuate and leave, they are very impatient. And the fact is 
developing a comprehensive flood control plan is not the result 
of waving a wand. It is a long, tough slog that requires a lot 
of agreement and meetings and consensus being developed.
    And we have had people ask us, the three of us and perhaps 
you all, well, why did Grand Forks and East Grand Forks get a 
project 12 years ago? Was it because they got the flood? They 
say we should have had some bad news so that we could have 
gotten the project.
    You know, that is not the way it works. And I just wanted 
to end this with an understanding that the way it works is when 
local governments reach agreement.
    Grand Forks and East Grand Forks reached an agreement very 
quickly, but they had the added benefit of having a 
comprehensive study already underway that had begun 2 years 
prior. And so, after having been evacuated, they moved right 
straight ahead, and their project is complete.
    It is not as if Fargo and Moorhead each haven't improved 
their flood control and their flood fighting capabilities. Each 
has invested in various component projects and buyouts and so 
on, but neither has agreed, and there has been no agreement on 
a comprehensive plan for Fargo and Moorhead.
    And the question is will that occur now? My guess is it is 
likely, and this hearing, the meetings in Washington that the 
Governor, that we all attended and other similar meetings will 
make that judgment, will determine whether that is the case.
    My hope is that it will be the case because I believe there 
needs to be a comprehensive flood control plan developed, 
planned, and finally built.
    Let me thank all of you for your testimony.

                    ADDITIONAL SUBMITTED STATEMENTS

    The hearing record will remain open for 2 weeks, and we 
will also invite others who wish to submit testimony for the 
permanent record to do so.
    [The statements follows:]
   Prepared Statement of Gerald H. Groenewold, Director, Energy and 
                     Environmental Research Center
    Thank you, Senator Dorgan and members of the subcommittee. I 
appreciate this opportunity to provide testimony on a flood mitigation 
concept recently evaluated by the Energy and Environmental Research 
Center (EERC).
    As many of you well know, the Red River Basin is subject to 
frequent damaging inundation from minor and major flood events, with a 
truly devastating flood occurring, on average, every decade. Within the 
last decade, billions of dollars have been spent on flood preparation 
and recovery efforts within the Red River Basin, which underscores the 
need for implementation of alternative flood mitigation approaches to 
augment conventional flood control structures.
    The EERC recently completed a federally funded multiyear effort 
that evaluated the feasibility of employing a basinwide, distributed, 
temporary storage strategy as a means of augmenting existing dikes and 
controlling the devastating effects of springtime flooding in the Red 
River Basin. With funding provided by the U.S. Department of 
Agriculture Natural Resources Conservation Service (NRCS) and input and 
guidance from two advisory boards, the EERC conducted both hydrologic 
modeling and field demonstrations of the concept. The flood mitigation 
approach, referred to as the Waffle concept, could be accomplished by 
temporarily storing springtime runoff in existing ``depressions'' 
within the basin, primarily ditches and low-relief fields bounded by 
existing roads. The storage areas, roads, and existing drainage systems 
would act as a distributed network of channels and control structures 
to temporarily store water until downstream flood crests along the Red 
River and its tributaries subside.
    There are two kinds of dikes: those that have been breached, and 
those that will be breached. Absolute security from flooding requires 
augmentation of dike systems. The results of the EERC's effort 
demonstrated that the Waffle concept is an excellent means of 
augmenting dikes and mitigating damage from large springtime floods. 
This approach is particularly effective as a means of intercepting, 
controlling, and reducing overland runoff and, as such, could be 
implemented as a stand-alone flood mitigation approach or as an augment 
to conventional flood mitigation measures. The study estimated that, if 
implemented, the Waffle would reduce peak flooding by as much as 6.2 
feet along the Red River during a 1997-type event. The predicted net 
flood mitigation benefits of the Waffle over the next 50 years for the 
larger communities along the Red River were on the order of hundreds of 
millions of dollars, with some implementation scenarios exceeding $800 
million in net benefits. These benefits could be attained with 
participation scenarios encompassing as little as 5 percent of the 
basin's land area. The Waffle concept protects the entire basin, not 
merely a few metropolitan areas with large dike systems. Unquantified 
benefits of the Waffle approach also accrue to those areas with limited 
or no flood protection measures, such as agricultural lands, 
farmsteads, smaller communities, and rural infrastructure. For 
instance, frequent and severe road washouts, which often decimate 
county road maintenance and construction funds, are easily prevented 
with Waffle-type storage. The approach also provides ancillary benefits 
through reduced soil erosion and increased soil moisture and 
groundwater recharge during dry years.
    Unlike conventional flood control approaches, the Waffle concept 
does not entail implementing drastic structural measures to intercept, 
retain, or divert large volumes of water in order to achieve flood 
mitigation benefits--instead minor structural modifications are made to 
existing culverts to retain precipitation primarily where it falls on 
the landscape. The aforementioned hydrologic and attendant financial 
benefits were determined assuming no structural modifications would be 
made to existing roads; however, the EERC estimates that by simply 
elevating certain low-lying areas on roads surrounding potential Waffle 
storage areas, the available storage volumes would double or, perhaps, 
even triple with only modest increases in utilized storage area. This 
could prevent some tributaries from even reaching flood stage, 
resulting in as much as a 10-foot reduction in the level of the Red 
River during a 1997-type flood event.
    This approach is an excellent means of providing an additional 
source of income to rural residents by allowing farmers to have two 
crops: stored water prior to the planting season as well as their 
regular crop. The economic evaluation of the Waffle concept, conducted 
by North Dakota State University's Agricultural Extension Service, 
concluded that the Waffle concept is economically viable even with 
sign-up bonuses and landowner reimbursements equivalent to twice that 
of the land's cash rent. Thus rather than spending billions of dollars 
on flood preparation efforts or on damage to property and 
infrastructure after the fact, much less money could be spent on 
reimbursing landowners for temporary storage of water on their land--
without taking farmland out of production.
    I urge the U.S. Senate to construct a program wherein landowners 
can be compensated for temporarily storing water until downstream 
threats from flooding have subsided. Given the history of severe and 
frequent flooding in the region, a basinwide flood mitigation approach 
like the Waffle is essential to long-term security from floods and the 
economic vitality of the region. Our results have shown that 
coordinated basinwide water management is viable, and the Waffle 
concept is an excellent example of an option available for 
implementation.
                                 ______
                                 
           Prepared Statement of the North Dakota Farm Bureau
    Senator Dorgan and members of the subcommittee, thank you for the 
opportunity to submit comments on Red River Basin flood control.
    North Dakota Farm Bureau is a member-organization, representing 
more than 26,000 families across the State. Our purpose is to be the 
advocate and catalyst for policies and programs that improve the 
financial well-being and quality of life of our members. That is why we 
are taking an active role in the issue of water management for the Red 
River Basin. We have thousands of members--many of them landowners--who 
will be impacted by decisions made regarding future Red River Basin 
water issues.
    And it is our members who saw a need, took charge and developed the 
Farm Bureau Red River Basin Task Force, with the express purpose of 
evaluating a water management plan for the Red River Basin. As 
envisioned, the task force will gather information, identify 
individuals and organizations with access to appropriate data and 
correspond with other organizations. The information gathered will be 
used to build an all-encompassing management plan that takes into 
consideration the unique needs of landowners. The task force will be 
comprised of a chairman and eight other Farm Bureau members from across 
the basin.
    Unfortunately, Red River flooding has become a polarizing issue. 
This task force is interested in finding answers that will support 
landowners as well as communities in the Red River Basin. Without an 
active voice from landowners, committed to overcoming rural challenges 
with an eye on growing healthy communities, we feel the issue will 
continue to grow more contentious.
    The Farm Bureau has a diverse membership. In Cass County alone, we 
have more than 3,000 members who are urban dwellers. This diversity 
provides us with a unique opportunity to speak to various audiences and 
provide them with accurate and relevant information.
    Agriculture continues to be the driving economic force in the Red 
River Valley, as well as statewide. As such, agriculture must be part 
of the water management decisionmaking process. We respectfully request 
that our task force chairman have a seat at the table in any 
discussions regarding the future of water management in the Red River 
Basin.
    Thank you for allowing us to submit comments on this issue.
                                 ______
                                 
 Prepared Statement of Senator Tim Mathern, District 11, North Dakota 
                          Legislative Assembly
    Senator Dorgan, thank you for holding your hearing in Fargo 
yesterday. We have much work to do!
    I wanted to make a comment for the record about permanent land use 
easements. My concern was also raised by General Walsh. He noted 
``flood-wise requirements'' for flood plains as part of the solution to 
prevent wide spread damage. I agree that State and local governments 
must take more responsibility in this area.
    We have dealt with such legislation in North Dakota with little 
success but maybe a greater awareness of benefits of such land use 
could lead to another outcome. There are many natural resource and 
conservation organizations that could be invited to take part in the 
flood prevention discussions. This would lead to a greater awareness of 
the use of flood plain management to benefit not only people living in 
flood danger but also to landowners.
    My background includes having spent time in the Netherlands to 
learn about dikes, floodplain requirements, and water policy. I work at 
Prairie St. John's hospital situated next to the Army Corps dike built 
in the 1960s in Fargo and serve on the appropriations committee 
designating State match dollars for such projects.
    Please consider broadening your discussions in this regard. I will 
to do the same.

                         CONCLUSION OF HEARING

    Senator Dorgan. The hearing is recessed.
    [Whereupon, at 5:52 p.m., Wednesday, May 27, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
